   Report No. SPO-2009-003             March 17, 2009




             Special Plans and Operations



Assessment of the Accountability of Night Vision Devices
       Provided to the Security Forces of Iraq
General Information
Forward questions or comments concerning this assessment report and other activities
conducted by the Office of Special Plans & Operations to:

                       Office of the Assistant Inspector General
                            for Special Plans & Operations
                   Department of Defense Office of Inspector General
                                 400 Army Navy Drive
                               Arlington, VA 2202-4704
                                           or
                                E-mail: spo@dodig.mil

An overview of the Office of Special Plans & Operations mission and organization and a
list of past evaluations and future topics is available at http://www.dodig.mil/spo.

Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/spo/reports or contact the SPO Secondary
Reports Distribution Unit at (703) 604-8833 (DSN 664-8833) or fax (703) 604-9769.
                                    INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704


                                                                                    March 17, 2009

MEMORANDUM FOR DISTRIBUTION

SUBJECT: Assessment of the Accountability of Night Vision Devices Provided to the Security
         Forces of Iraq (Project No. D2008-D000IG-0271.001)


We are providing this final report for your information and use. We performed this assessment
as part of a series of projects regarding accountability and control of sensitive items procured for
and transferred to the security forces of Iraq. We considered client comments on a draft of this
report when preparing the final report.

After receiving client comments to this report, we have made the following changes, which are
reflected in this report:

      Deleted draft Recommendation 8.b. and renumbered draft Recommendation 8.a. as
       Recommendation 8 in the final report. We redirected the action for Recommendation 8
       in the final report from the Joint Staff J4 to the Army G4.

      We redirected the action from Recommendation 5.e. from DTSA to DSCA.

We request additional comments and information by May 15, 2009, as requested in our response
to client comments for each recommendation as follows:

      MNF-I: We request additional information on Recommendations 1.a., 1.b., 3., 4.b., 6.a.,
       7.b.(1), and 7.b.(2).

      MNSTC-I: 1.c., 4.a., 5.a., 5.c., 5.d., and 6.d.

      Army G4: We request comments to redirected Recommendation 8.

      AMC: We request additional information on Recommendations 6.e.(1), and 6.e.(2).

      CJSOTF-AP: We request comments to Recommendation 6.c.

      DSCA: We request comments to redirected Recommendation 5.e.

If possible, send your comments in electronic format (Adobe Acrobat file only) to
SPO@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the / Signed / symbol in place of the
actual signature. If you arrange to send classified documents electronically, they must be sent
over the SECRET Internet Protocol Router Network (SIPRNET).
                Executive Summary:
                Assessment of the Accountability of Night
                Vision Devices Provided to the Security
                Forces of Iraq


Who Should Read This Report?
Personnel from the Office of the Secretary of Defense, the Joint Staff, the U.S. Central
Command and its subordinate commands in Iraq, the Military Departments, and Defense
Agencies who are responsible for the accountability and control of sensitive items, including
Night Vision Devices (NVDs).

Background
This report is the third in a series of DoD Office of Inspector General, Special Plans and
Operations assessments regarding accountability and control of sensitive items transferred or
being transferred to the Iraqi Security Forces (ISF).

We performed the first assessment on accountability and control of munitions being transferred
to the ISF in September and October 2007 1 . The team returned to Iraq in April – May 2008 for a
second assessment, this time to determine the status of the corrective actions undertaken based
on the first report, and to review the Foreign Military Sales (FMS) program and the development
of Iraqi logistics and medical sustainability. During the fieldwork, we discovered potentially
significant weaknesses in the management of internal controls for NVDs by the U.S. military,
and alerted the Commander, Multi-National Force-Iraq (MNF-I) and Commander, Multi-
National Security Transition Command-Iraq (MNSTC-I), to those problems 2 .

We conducted he fieldwork for this third assessment in Iraq during October and November 2008.
The team assessed the oversight and management of NVDs, and whether current accountability,
control, and physical security concerning the distribution of NVDs provided to the ISF was
adequate. In the course of our assessment, we reviewed the following areas: contracting and
procurement, transportation and storage, U.S. issuance procedures, and the accountability and
control support provided by the ISF.




1
  Report No. SPO-2008-001, “Assessment of the Accountability of Arms and Ammunition Provided to the Security
Forces of Iraq,” July 3, 2008 (classified report).
2
  Report No. SPO-2009-002, “Assessment of Arms, Ammunition, and Explosives Accountability and Control;
Security Assistance; and Sustainment for the Iraqi Security Forces,” December 19, 2008.


                                                      i
Night Vision Devices
Night vision devices use image intensification
technology to capture ambient light and amplify
it thousands of times by electronic means. The
U.S. military uses NVDs to see the battlefield at
night, enabling personnel to maneuver and fight
on a 24-hour basis. NVDs are small,
lightweight and look like binoculars,
monoculars or rifle scopes. Military
applications include nighttime infantry, flight,
surveillance and sniper operations. The Defense
Security Cooperation Agency lists NVDs as one
of 16 critical defense articles that require
Enhanced End Use Monitoring and increased
physical security and accountability procedures.
This monitoring is essential to ensure that the
Government of Iraq (GoI) is complying with the
requirements imposed by the U.S. Government
                                                      Figure 1: Aviator Using Night Vision Device
as a condition for the use, transfer, and security
of NVDs.

Progress Being Made on Night Vision Device Oversight
One of the pillars of U.S. Government strategy in Iraq has been to stand-up an ISF that can plan,
conduct, and sustain independent operations. This will enable not only a secure and stable Iraq,
but also a more rapid drawdown of U.S. forces. In support of this train and equip mission,
MNSTC-I has transferred approximately 50,740 NVDs to the ISF since 2005. Due to the
complexities of training and equipping a nascent ISF, while also fighting a war, MNSTC-I did
not initially implement certain policies and procedures that could have ensured the accountability
and control of these sensitive items.

However, since the first half of 2008, when the Commanders of MNF-I and MNSTC-I became
aware of potentially significant weaknesses in the management of internal controls for NVDs,
considerable progress has been made in establishing effective oversight of NVDs. Specifically,
MNSTC-I is putting in place the essential elements of an Enhanced End Use Monitoring
program for FMS-purchased NVDs. MNSTC-I has also issued policy guidance covering the
distribution and issuance of sensitive equipment such as NVDs to ISF. And, it has implemented
standard operating procedures for End Use Monitoring to include the Golden Sentry and Blue
Lantern programs, and Section 1228 of the 2008 National Defense Authorization Act.

Further, the Ministry of Interior (MOI), the Ministry of Defense (MOD) and the Counter
Terrorism Bureau (CTB) have signed Memorandums of Agreement covering NVD
accountability and control with MNSTC-I.




                                                 ii
However, based on our recent assessment visit, we determined that there is still additional
improvement needed. We formulated nine new observations and 25 recommendations in the
areas of accountability and control.

Assessment Results
As previously stated, since 2005, MNSTC-I has transferred approximately 50,740 NVDs to the
ISF. Due to different factors, the current number of NVDs in the ISF inventory is not precisely
known. To establish a reliable baseline number, MNF-I should issue guidance directing a
complete inventory (by unit, type and serial number) of all NVDs in the ISF, regardless of
country of origin, type of NVD or means by which they were purchased.

MNF-I and MNSTC-I have made notable progress in issuing policy guidance and developing
standard operating procedures (SOPs) covering the accountability and control of sensitive items.
MNSTC-I’s Logistics Accountability SOP and End Use Monitoring SOP provide direction for
the accountability of sensitive items in Iraq. However, the documents appear to give conflicting
guidance and MNSTC-I personnel did not always follow the procedures outlined in them.
MNSTC-I needs to reconcile the two SOPs into one document and ensure its personnel adhere to
this guidance.

MNSTC-I purchased the vast majority of the NVDs transferred to the ISF through Direct
Commercial Sales, many from foreign countries. Additionally, MNSTC-I purchased
approximately 19,000 U.S-produced NVDs through Direct Commercial Sales that require routine
End Use Monitoring under the Department of State’s Blue Lantern Program. MNSTC-I had not
developed and implemented procedures for the execution of the Blue Lantern Program to capture
these NVD serial numbers. MNSTC-I should ensure that there is “reasonable assurance” that the
Government of Iraq complies with USG requirements with respect to the use, transfer, and
security of defense articles supplied to the GoI under Blue Lantern, including NVDs.

During an inventory at the Iraq Special Operations Forces Brigade in Baghdad, the assessment
team determined that 167 AN/PVS-14 NVDs were not properly recorded on MNSTC-I records.
Further, 41 of the 167 AN/PVS-14s were assigned to U.S. Special Operations Forces units in
Iraq and were on the Combined Joint Special Operations Task Force property books. MNF-I
should determine the origin of these NVDs, how they were transferred to the custody of the Iraq
Special Operations Forces, and take the necessary steps to prevent a reoccurrence.

On May 3, 2005, MNSTC-I purchased 1,057 AN/PVS-7 and 32 AN/PVS-10 NVDs for the Iraqi
Special Operations Forces. They were shipped to U.S. Special Operations units in the
continental United States from late 2005 to mid-2006. To date, only 763 of the AN/PVS-7s and
26 of the AN/PVS-10s have arrived in Iraq and turned over to the Iraqi Special Operations
Forces. MNSTC-I did not have sufficient internal controls in place to ensure that all NVDs
purchased were delivered to Iraq for turnover to the ISF, which, in this case, reduced the
operational capability of the Iraqi Special Operations Forces. The Joint Staff J4 needs to develop
a plan to recover or replace these NVDs, thus enabling MNSTC-I to supply them to the Iraqi
Special Operations Forces as originally intended.




                                                iii
When U.S. trainers embedded with the Iraqi Special Operations Forces coordinated to send 159
AN/PVS-7 NVDs back to the United States for repair, it was determined that 21 had image
intensification tubes that exceeded the capability of approved NVD export limits to Iraq. Those
tubes were replaced with tubes that met the export restrictions. The Commander, Army Materiel
Command needs to determine if any of the remaining AN/PVS-7 or AN/PVS-14 NVDs in the
Iraqi Special Operations Forces inventory exceeds export limitations to Iraq.

At Baghdad Police College, Taji National Supply Depot, the Iraq 11th Division, the Iraqi Special
Operations Force, and at the two Location Commands we visited, a system of property books, by
serial number, was used to account for NVDs received and issued. However, there did not appear
to be any documented written policy or procedures on NVD accountability and control. The
Iraqis just knew by tradition “how to do it.” Based upon the Memorandums of Agreement
signed between MNSTC-I and the MOI, MOD and CTB, MNF-I should assist and mentor Iraqi
Ministry and ISF counterparts to develop and implement Iraqi polices and procedures for NVD
accountability and control.

At the time of our visit, the Government of Iraq had no capability in-country to repair damaged
NVDs. Furthermore, the MOD, MOI, CTB, or other ISF logistics organizations did not have
policy or SOPs for the repair and/or final disposition of damaged NVDs. As a result, many
broken and damaged NVDs were not being repaired, disposed of, or replaced, which reduced ISF
operational capability. MNSTC-I needs to coordinate with the MOI, MOD and CTB to establish
a maintenance capability for ISF NVDs and to mentor the ISF’s development of policy and SOPs
for NVD repair or disposition, whichever is appropriate.

Finally, the MNSTC-I Logistics Military Assistance Team at the Kirkush Military Training Base
(KMTB) Location Command maintained control and custody over all classes of supply, except
ammunition. This slowed the mentoring of the Iraqis KMTB staff in the overall operation of a
location command and the specific accountability procedures required for sensitive items.
MNSTC-I needs to develop and implement a plan to transition accountability and control over all
classes of supply at KMTB Location Command–including NVDs–to the ISF.




                                               iv
Recommendations Table

Client                   Recommendations Requiring              No Additional Comments
                         Comment/Information                    Required

Commander, Multi-
                         1.a., 1.b., 3., 4.b., 6.a., 7.b.(1),
National Force-Iraq                                             6.b.
                         7.b.(2).



Commander, Multi-
National Security
                         1.c., 4.a., 5.a., 5.c., 5.d., 6.d.
Transition Command-                                             2.a., 2.b., 5.b., 7.a., 9.
Iraq


                         8. (Redirected from Joint Staff J4
Army G4
                         to Army G4.)


Commander, Army
                         6.e.(1), 6.e.(2).
Materiel Command


Commander, Combined
Joint Special          6.c., (Did not respond to draft
Operations Task Force- report.)
Arabian Peninsula


Director, Defense
                         5.e. (Redirected from DTSA to
Security Cooperation
                         DSCA.)
Agency


Please provide comments by May 15, 2009.




                                                   v
                              Table of Contents
Executive Summary                                                               i

Background                                                                      1

Objectives                                                                      1

Observations and Recommendations
  1. Accountability and Control Procedures for the Transfer of Night Vision
     Devices to the Iraqi Security Forces.                                      5
  2. Multi-National Security Transition Command-Iraq’s Implementation of
     Policy and Standard Operating Procedures on Accountability and Control
     of Sensitive Items.                                                       21
  3. Adequacy of Iraqi Security Forces Policies and Standard Operating
     Procedures for the Accountability and Control of Night Vision Devices.    27
  4. In-Country Repair Capability for Night Vision Devices and Procedures to
     Dispose of Non-Repairable Night Vision Devices.                           31
  5. Multi-National Security Transition Command-Iraq’s Implementation of the
     Department of State Blue Lantern Program.                                 35
  6. Iraqi Special Operations Forces Night Vision Devices.                     43
  7. Need to Update and Coordinate the Multi-National Security Transition
     Command-Iraq Logistics Accountability Standard Operating Procedures
     and the Security Assistance Office Standard Operating Procedures.         51
  8. Misdirected Shipment of Iraqi Special Operations Forces Night Vision
     Devices to U.S. Army Units.                                               55
  9. Transition of Supply Management to the Iraqi Security Forces.             61
Appendices
  A.   Scope, Methodology, and Acronyms                                        63
  B.   Summary of Prior Coverage                                               67
  C.   Glossary                                                                69
  D.   Organizations Contacted and Visited                                     73
  E.   United States Code and DoD Policies                                     75
  F.   Management Comments                                                     81
  G.   Report Distribution                                                     99
Introduction
Background
This is the third in the series of DoD Office of the Inspector General (DoD IG), Special Plans
and Operations (SPO) reports regarding accountability and control of sensitive equipment items
being transferred to the Iraqi Security Forces (ISF).

The DoD IG performed an assessment of the accountability and control of Arms, Ammunition,
and Explosives (AA&E) 3 in Iraq in September and October 2007. The results of that assessment
and recommendations for corrective actions were published in DoD IG Report No. SPO 4 -2008-
001, “Assessment of the Accountability of Arms and Ammunition Provided to the Security
Forces of Iraq,” July 3, 2008 (a classified report).

Based on the first report, the Inspector General assembled a second assessment team in February
2008 to determine the status of the corrective actions being implemented for the accountability
and control of AA&E in Iraq. The results of that assessment and recommendations for corrective
actions were published in DoD IG Report No. SPO-2009-002, “Assessment of Arms,
Ammunition, and Explosives Accountability and Control; Security Assistance; and Sustainment
for the Iraqi Security Forces,” December 19, 2008.

During the fieldwork conducted in April and May 2008 for the second assessment, we
discovered potentially significant weaknesses in the internal controls used by the U.S. military
for management of sensitive technology items, such as night vision devices (NVDs). The team
made a draft recommendation to Multi-National Security Transition Command-Iraq (MNSTC-I)
to develop an End Use Monitoring (EUM) Compliance Plan with the Government of Iraq (GoI).
This plan would cover routine End Use Monitoring (EUM) 5 and Enhanced End Use
Monitoring 6 (EEUM). It also recommended that MNSTC-I mentor ISF staff to develop a
suitable system for accountability and control of sensitive items already provided or to be
provided the ISF, including NVDs. The system also needed to be consistent with EUM/EEUM
requirements.

Objectives
On August 19, 2008, we announced the 2008 “Assessment of the Accountability of Night Vision
Devices Provided to the Security Forces of Iraq.”



3
   We did not include an evaluation of explosives in our assessment.
4
   DoD IG, Office of Special Plans and Operations.
5
   Routine EUM is conducted under the DoS Blue Lantern Program or the DoD Golden Sentry Program on defense
articles and services that are transferred to trusted partners. In the case of Golden Sentry, the LOAs for these articles
and/or services do not include any unique notes and/or conditions associated with the specific transfer.
6
   Enhanced EUM is required for sensitive defense articles, services, and technologies; defense articles provided
under the provision of FAA, section 505(f) (reference (b)); and technology transfers made within sensitive political
situations. For sensitive articles and/or services, LOAs may contain specialized notes or provisos requiring greater
physical security and accountability contingent on the principle of trust with verification.


                                                            1
The objectives for this assessment were to:

         Assess the oversight and management of night vision devices.

         Determine whether current accountability, control, and physical security over the
          distribution of NVDs provided to the ISF was adequate.

         Assess the following specific areas:

                  Contracting and procurement
                  Transportation and storage
                  U.S. issuance procedures
                  Accountability and control support provided by ISF.

Methodology
We examined the methodologies and processes currently in place, and those projected, for the
proper handling and distribution of NVDs to the GoI. We examined the export procedures for
NVDs and determined which policies pertained directly to Iraq. We identified gaps,
redundancies, flaws, and risks associated with the current policy implementation at all levels.

We examined both quantitative and qualitative data in this project. The qualitative data
consisted of individual interviews, direct observation, and written documents. Quantitative data
consisted of inventory records and other documentation that was used to determine the number
of NVDs shipped to, received by, and distributed to the GoI via Iraqi Security Forces Fund
(ISSF) and/or Foreign Military Sales (FMS) and how they were being handled and accounted
for.

Progress Made
Since 2004, the U.S. has procured approximately 50,740 NVDs 7 for the ISF 8 . MNSTC-I can
document the transfer of 46,876 of those NVDs to the ISF. It is possible that other NVDs were
provided prior to 2005 through transfers from U.S. forces or other U.S. government sources, so
determining an exact number would be difficult.

However, significant progress has been made by MNSTC-I in establishing NVD oversight since
the DoD IG team visited in April-May, 2008.

         MNSTC-I is putting in place the essential elements of an EEUM program for FMS-
          purchased NVDs.

         The Commanding General, MNSTC-I has issued policy guidance covering the
          distribution and issuance of sensitive equipment to ISF, to include NVDs.


7
    Includes goggles, scopes, and monoculars.
8
    Includes both military and police forces.


                                                   2
        MNSTC-I has issued a Standard Operating Procedure (SOP) for routine EUM and EEUM
         that includes the Golden Sentry 9 program, the Blue Lantern 10 program, and Section
         1228 11 of the 2008 National Defense Authorization Act.

        MNSTC-I has documentation, by quantity, for 46,876 (92.4 percent) of the
         approximately 50,740 NVDs procured for the ISF.

        Memorandums of Agreement (MOAs) covering NVD accountability and control have
         been signed between MNSTC-I and the Ministry of Interior (MOI), Ministry of Defense
         (MOD), and Counter Terrorism Bureau (CTB).

        Baghdad Police College (BPC), Taji National Supply Depot (TNSD), the Iraq 11th
         Division, the Iraqi Special Operations Force (ISOF) and two Location Commands, utilize
         a system of property books to account for NVDs received and issued, by serial number.

        The MOD is developing a database to track NVD inventory by unit, type and serial
         number. This database will eventually track all NVDs in the MOD inventory, whether
         procured from the USG via the ISSF, FMS, or by other funding sources.

Appendix A discusses the scope, methodology, and acronyms related to the assessment
objectives and a list of acronyms used in this report. Appendix B provides a summary of prior
coverage related to the assessment objectives. Appendix C provides the definitions of terms
used in this report. Appendix D provides a list of the organizations contacted and visited during
the assessment. Appendix E provides a summary of United States Code and DoD policies
applicable to this report. Appendix F contains management comments (in final report).
Appendix G provides a distribution list for the final report.




9
   Department of Defense end use monitoring of defense articles and services provided to foreign customers or
international organizations through government-to-government programs.
10
   Department of State end use monitoring of the commercial export of defense articles, services, and related
technical data subject to licensing.
11
   Directs the President to implement a policy to control the export and transfer of defense articles into Iraq, and to
implement a defense articles registration and monitoring system.


                                                            3
4
Observation 1. Accountability and Control Procedures for
the Transfer of Night Vision Devices to the Iraqi Security
Forces.
Since 2004, MNSTC-I has procured approximately 50,740 NVDs for the ISF. Analysis indicates
that 50,432 NVDs have been delivered to MNSTC-I. MNSTC-I can account for about 46,876 of
the NVDs by quantity, as recorded in broad categories (MOD, MOI, CTB, Abu Ghraib
Warehouse [AGW]) in the MNSTC-I J4 issue logbook. An additional 308 NVDs were still “due
in” to MNSTC-I and AGW reported that another 128 were on-hand under Coalition control.
This totaled approximately 46,440 NVDs actually under ISF control, accounted for by quantity.
MNSTC-I had issuance documentation for approximately 25,000 of the 46,440 NVDs,
identifying as recipient of the NVDs a specific Iraqi Army or police organization and/or
individual assigned there. However, so far, MNSTC-I has captured only about 20,000 NVD
serial numbers out of the total quantity issued to the ISF or still stored at AGW warehouse.

The lack of full accountability of NVDs resulted from a combination of factors, including the
exigencies associated with the nature of the combat from 2004 to 2007 and the difficult Coalition
effort to stand-up the nascent ISF while these organizations were actually engaged in combat.
The situation was further exacerbated by the inexperience of U.S. personnel involved in the
process, from contracting to transfer to the ISF, along with insufficient personnel and high
personnel turnover rates at MNSTC-I. In addition, MNSTC-I did not have adequate policies and
procedures in place. Many of these issues had been corrected at the time of this report and the
current or proposed policies and procedures in place for accountability and control of sensitive
items, to include NVDs, should provide sufficient oversight in the future, as long as they are
consistently followed.

However, the lack of any accountability for approximately 3864 NVDs and the lack of serial
number accountability for about 30,740 more could lead to misappropriation and theft, ultimately
putting U.S. service members at risk by providing our enemies a capability they might not have
otherwise had. Lack of serial number accountability can also hinder criminal prosecutions and
administrative actions against those involved in misappropriation and theft.

Applicable Criteria

MNSTC-I advisors and trainers were involved on a daily basis in mentoring the processes for
accountability and control of sensitive items, to include NVDs, at the MOI, BPC, the MOD,
TNSD, CTB, ISOF, and the Location Commands. Multi-National Corps- Iraq (MNC-I) trainers
did the same with Iraqi military units and police organizations. In many instances, the Iraqis had
no published procedures for accountability and control of sensitive items. As such, certain U.S.
policies and procedures, adjusted to meet Iraqi needs and desires, may serve as a basis for the
MNSTC-I and MNC-I efforts in these areas.

U.S. Government and DoD policies and procedures that apply to the accountability, control, and
physical security of property and AA&E are outlined below. Specific requirements cited in these
guidance documents are discussed in Appendix E.


                                                5
Accountability and Control for U.S. Government Property.

Title 40, United States Code, section 524. Requires accountability and control over
USG property. It states:
       (a) Required. Each executive agency shall –
           (1) maintain adequate inventory controls and accountability systems for property
           under its control.


Foreign Assistance Act, section 505(f). Establishes requirements for technology transfers
in sensitive situations.

Accountability and Control for DoD Property.

Directive-Type Memorandum (DTM) 08-041 – Registration and Monitoring of
Defense Articles and Services Provided to Iraq, September 25, 2008. This document
establishes policy, assigns responsibilities, and sets forth procedures to certify the establishment
of a registration and monitoring system for controlling the export and transfer of defense articles
to the GoI and/or other groups, organizations, citizens, or residents of Iraq. It also designates the
Defense Security Cooperation Agency (DSCA) as the lead agent responsible for developing,
implementing, and enforcing the registration and monitoring policy pursuant to section 1228,
Public Law 110-181, “National Defense Authorization Act for Fiscal Year 2008,” January 28,
2008.

DoD Instruction 5000.64. “Accountability and Management of DoD-Owned Equipment and
Other Accountable Property,” November 2, 2006, provides policy and procedures for DoD-
owned equipment and other accountable property and establishes policy and procedures to
comply with 40 U.S.C. 524.

Sensitive Equipment Items.

Government of Iraq Section 505 Assurance Letter, dated August 14, 2004. This
document establishes the GoI’s agreement to provide the same level of security and
accountability as the USG and to permit the USG representatives to observe and review items
sold under the security assistance program, to include sensitive items.

DoD 4100.39-M. “Federal Logistics Information System,” Volume 10, Table 61, November
2007, defines sensitive items.

DoD 5200.08-R. “Physical Security Program,” April 9, 2007, implements DoD policies and
minimum standards for the physical protection of DoD personnel, installations, operations, and
related resources, to include the security of sensitive items.
DoD 5105.38-M. “Security Assistance Management Manual, Chapter 8,” October 3, 2003,
specifies responsibilities for Security Assistance Organizations and U.S. Diplomatic Missions
with Security Assistance responsibilities which:



                                                      6
      “Establish and maintain liaison with the U.S. Embassy’s Blue Lantern representatives.”

      “…verify the bona fides of proposed recipients and delivery of defense articles and
       services sold commercially and delivered under an export license.”

      “Develop and promulgate country specific EUM policy, Standard Operating
       Procedures…”

MNF-I Fragmentary Order 08-302 [Iraqi Security Forces Night Vision Device
Inventory], dated 031445CJUL08. This fragmentary order (FRAGO) directed an inventory
of NVDs provided to the ISF, but was only applicable to the Iraqi Army, not the various police
organizations.

MNSTC-I Memorandum, “Multi-National Security Transition Command-Iraq
Logistics Accountability Standard Operating Procedures,” April 26, 2008. Provides
mandatory direction to all MNSTC-I personnel for the maintenance of material accountability, to
include sensitive items, through the process of acquisition, receipt, storage, and distribution up to
and including the point of issue to the GoI.

MNF-I Memorandum, “Implementation of Multi-National Security Transition
Command-Iraq Logistics Accountability Standard Operating Procedures,” June 5,
2008. This memorandum directed the implementation of the MNSTC-I Logistics
Accountability SOP and directed all MNC-I elements to ensure consistent accountability
standards across the supply chain in Iraq. The issuance of the MNSTC-I Logistics
Accountability SOP provided a basis for Multi-National Command-Iraq (MNC-I) trainers
working with ISF units to train and advise their Iraqi counterparts on the accountability of arms,
ammunition, and other supplies.

MNSTC-I Policy Statement #15-08, “Distribution and Issuance of Iraq Security
Force Funds (ISFF) or Foreign Military Sales (FMS) Equipment to the Government
of Iraq (GoI)” July 3, 2008. The policy statement requires that sensitive items, to include
NVDs, will be transferred to the ISF only at TNSD or BPC under specific accountability and
control circumstances. Until a joint Coalition-Iraqi serial number inventory is completed, the
sensitive items must be kept under a 24-hour Coalition guard. Any exceptions to this policy
must be approved by the MNSTC-I J4.

MNSTC-I Security Assistance Office Memorandum. “Iraq Golden Sentry End-Use-
Monitoring (EUM) SOP,” September 12, 2008. Directs the Security Assistance Office Golden
Sentry point of contact to establish liaison with the U.S. Embassy Blue Lantern representative to
assist in establishing an end use monitoring program for sensitive items of equipment licensed by
the Department of State (DoS) for export as a Direct Commercial Sale (DCS).

Night Vision Device Memoranda of Agreement with the Ministry of Defense,
Ministry of Interior, and the Counter Terrorism Bureau, dated September 30, 2008,
October 2, 2008, and October 2, 2008, respectively. Earlier versions of these
memoranda existed for the MOD (November 2005) and MOI (November 2006). They have


                                                  7
been recently updated, as noted above. A new MOA was also established with the CTB. These
memoranda establish specific accountability, control, and physical security requirements for the
NVDs transferred to the ISF. They also establish reporting requirements and provide the basis
for U.S. oversight.

Efforts to Account for Night Vision Devices Transferred to the Iraqi
Security Forces

During the DoDIG Munitions Accountability Assessment in April and May of 2008, we
conducted an inventory of 690 NVDs at TNSD and could not reconcile MNSTC-I data with
stock on hand. Based on this preliminary observation, the Commander, MNSTC-I ordered an
Army Regulation 15-6 investigation on July 21, 2008, into the control and accountability of
NVDs provided to the ISF.

The initial MNSTC-I Army Regulation 15-6 investigation revealed that there had been a lack of
documented NVD accountability. The results of this initial investigation also determined that of
the then-identified 40,058 NVDs that had been transferred to the ISF, over 26,000 lacked
supporting transfer documentation detailing transfer date, serial number, and receiving Iraqi unit
or organization, among other information.

As the MNSTC-I J4 continued to search for documentation associated with the procurement and
transfer of NVDs to the ISF, the Commander, Multi-National Force-Iraq (MNF-I), issued MNF-I
FRAGO 08-32 [Iraqi Security forces Night Vision Device Inventory] dated 031445CJul 08,
directing:

      MNSTC-I to conduct a 100 percent joint serial number inventory and serviceability
       inspection of all NVDs at AGW, TNSD, BPC, and the Location Commands.

      MNC-I to conduct a 100 percent joint serial number of NVDs with their Iraqi Army
       partner units.

      All results detailing unit/location/serial number/make/model/quantity/serviceability data
       to be forwarded to the MNSTC-I J4.

As of October 30, 2008, the MNSTC-I J4 reported that MNSTC-I had procured approximately
50,740 NVDs of all types and 46,440 of those were documented as transferred to the ISF (308
still due in/128 stored at AGW under Coalition control). When the 128 reportedly stored at
AGW and the 308 not yet received are added to this count, approximately 46,876 of the 50,740
procured are accounted for by quantity. This leaves 3864 NVDs not accounted for by quantity or
serial number. See Table 1 for additional details.




                                                8
     Table 1. Quantity Accountability of NVDs Procured for the Iraqi Security Forces*

                                      Total              Not
               CTB              Due Accounted          Accounted
MOD     MOI ISOF MIU** AGW TNSD In   For by   Procured   For
                                      Qty
27,161 14,080 3,983 411 128 805 308  46,876    50,740   3,864
*Data provided by the MNSTC-I J4.
**Miscellaneous Iraqi Units

The results of the countrywide serial number inventory, directed by the MNF-I FRAGO, were
incomplete. MNSTC-I obtained only about 15,000 NVD serial numbers. Analysis by the
MNSTC-I J4 and the DoDIG NVD Assessment Team revealed that:

         The MNF-I FRAGO only directed serial number inventory of NVDs in Iraqi Army units,
          resulting in the omission of serial number data for the NVDs previously provided the
          MOI and Iraqi Police organizations (see quantity data for NVD issuances to MOI in
          Table 1.)

         Although the MNC-I FRAGO implementing the MNF-I FRAGO called for the inventory
          to be conducted in both Iraqi Army and National Police organizations, it directed that
          “This inventory does not include commercially procured or non-U.S. systems.” 12 This
          eliminated serial number reporting of the NVDs purchased via Direct Commercial Sales
          (DCS) from the U.S and other countries, most notably Canada, which constituted the vast
          majority of the NVDs procured by MNSTC-I and transferred to the ISF.

         Not all U.S. trainers with Iraqi Army units responded to the MNC-I FRAGO that
          implemented the MNF-I FRAGO.

As we conducted interviews and analysis with various organizations and individuals with
responsibility for accountability of NVDs transferred to the ISF, it became apparent that there
were “untapped” sources of serial number data that would be useful to MNSTC-I as they sought
to improve their serial number accountability for NVDs. These data sources include:

         Updates from the Iraqi Joint Headquarters Combined Logistics Operations Center
          Database.

         Inventory records from MOD, MOI, and CTB program managers.

         DoS export licenses issued for DCS purchases under Blue Lantern. (The OIG team
          provided MNSTC-I the approximately 19,000 NVD serial numbers DoS had in its
          records for NVDs licensed for export to MNSTC-I and subsequent transfer to the ISF.)

As MNSTC-I incorporates the data from these various sources into a master baseline NVD
database, they will need to build in a capability that will identify duplicate entries to avoid a
12
     FRAGO_540 [31 JUL 08 DTU], to MNC-I OPORD 08-01, paragraph 2.C.3.C.3.


                                                   9
“double count.” (This approach is not error-proof as both MNSTC-I and the DoDIG Assessment
Team documented the existence of duplicate serial numbers on NVDs of non-U.S. manufacture.
However, these occurrences will be relatively insignificant in the overall effort to account, by
serial number, for as many of the approximately 50,740 NVDs transferred to the ISF as
reasonably possible.)

Over half of the 50,740 NVDs transferred to the ISF were of non-U.S. manufacture and were
procured through the DCS process. These NVDs were not designed and built to U.S. military
specifications and have not withstood the rigors of combat operations very well. At all Iraqi
organizations we visited, personnel produced significant numbers of foreign made NVDs that
were broken, with many beyond repair. We note that, as a result, these types of NVDs would
likely not have long remained operational, if obtained by untrained enemy personnel who did not
have repair capability.

We commend MNSTC-I for their success in documenting the “by quantity” transfer of the vast
majority of the NVDs they provided the ISF. We also note their ongoing effort to account for
these NVDs by serial number. We also have determined that current policies and procedures that
MNSTC-I has implemented or will implement to account for future transfer of sensitive items to
the ISF, to include NVDs, will be adequate to ensure serial number accountability, as long as
those procedures are followed. [See “MNSTC-I Logistics Accountability Standard Operating
Procedures” and Policy Statement #15-08, “Distribution and Issuance of Iraq Security Force
Funds (ISFF) or Foreign Military Sales (FMS) Equipment to the Government of Iraq (GoI)”].

However, we believe that to strengthen these policies and procedures, more work needs to be
accomplished to develop a comprehensive baseline NVD serial number inventory. In
conjunction with the already established weapons serial number database, the NVD baseline
inventory will provide a key part of an effective registration and monitoring system that complies
with existing DoD regulations for the transfer of defense articles to the GoI, or to other groups,
organizations, citizens or residents of Iraq. This includes compliance with the Directive-Type
Memorandum (DTM) 08-041 – Registration and Monitoring of Defense Articles and Services
Provided to Iraq, dated September 25, 2008.

Night Vision Device Serial Number Counts
We performed a judgmental sample of NVD numbers on-hand at AGW, TNSD, BPC, Taji
Location Command, Kirkush Location Command, Kirkush Base Defense Battalion, the Coalition
Air Force Training Team, the 11th Division (Iraqi Army), and the ISOF Brigade to determine the
accuracy of master inventory spreadsheets at those locations.

Abu Ghraib Warehouse.

The MNSTC-I J4 reported that 128 NVDs were stored under Coalition control at AGW.
However, the U.S warehouse manager reported that 624 NVDs were actually on-hand at AGW
and had been there since 2005.




                                               10
MySAP is AGW’s warehouse management system. The MySAP inventory program is sorted
only by type and quantity, not by serial number. Item serial numbers are maintained in a
separate database. Additionally, depending on the key words used, searches for certain items in
MySAP returns different results. This appears to be the reason for the difference between
MNSTC-I J4 and AGW NVD on-hand data, since both have access to the MySAP system.

While the on-hand quantity listed in MySAP (624) agreed with the totals actually stored at
AGW, we noted 43 discrepancies between the serial numbers we recorded and the inventory list
                                                         provided by AGW. These
                                                         discrepancies were all in the 603
                                                         NVDs (Binoculars Night Vision
                                                         CSPK6) stored under SKU TRN004-
                                                         IMO. These NVDs were all of non-
                                                         U.S. origin, purchased through DCS.
                                                         Many of the stamped serial numbers
                                                         were exceptionally hard to read and
                                                         could not be accurately determined,
                                                         in many instances. The serial
                                                         number discrepancies likely resulted
                                                         from the difficulty in reading the
                                                         serial numbers.

                                                           The U.S. Senior Advisor and the
                                                           TNSD Iraqi Commander briefed
 Figure 2: DoDIG NVD Assessment Team Inventory at AGW
                                                           accountability and control
procedures for supplies as follows:

      A 100 percent Coalition/Iraqi joint inventory is conducted upon arrival (NVDs now come
       with serialized lists).

      The overall quantities are uploaded into MySAP, but without serial numbers. The serial
       number lists are kept in hard copy.

      The Iraqis use a manual system to account for the equipment.

      The Iraqis conduct a monthly quantity inventory and a quarterly serial number inventory
       of sensitive items. (The U.S. advisor had not yet witnessed a quarterly serial number
       inventory.)

      NVDs have generally come into Baghdad International Airport on the
       U.S.-controlled military side and were then moved by Coalition convoys to TNSD. In
       the future, all NVDs will come into country this way.

      NVDs were stored in a double locked building inside a fenced, guarded compound.




                                               11
The MNSTC-I J4 reported that 805 NVDs were stored at TNSD. The warehouse manager
reported that 474 NVDs were actually on-hand, 331 less than the MNSTC-J4 inventory count.

We inventoried 295 of the 474 NVDs. Specific results follow:

      NVG 7-21: Two hundred sixteen on the serial number inventory sheet and 218 actually
       on-hand (two additional, unlisted devices--serial number 600246 in Box 033 and 602820
       in Box 023). Two had duplicate serial numbers listed on the inventory sheet and on hand
       (actual devices with duplicate serial numbers 605352 in Box 024). Twelve had incorrect
       serial numbers listed on the inventory sheet.

       Box                   Listed Serial Number           Correct Serial Number
       017                        601922                           601988
       017                        603301                           603302
       022                        602012                           602817
       018                        602720                           601720
       057                        600535                           600555
       021                        600731                           600231
       021                        602415                           602595
       006                        602864                           602861
       007                        603159                           703159
       007                        601206                           602107
       025                        603801                           603210
       004                        601281                           600281

      American Technologies Network (ATN) NVG 7: Forty-five on the serial number
       inventory sheet and 45 on hand. Four had incorrect serial numbers.

       Box                   Listed Serial Number           Correct Serial Number
       403                         55848                           55846
       403                         58317                           56317
       403                         51347                           56347
       403                         55359                           56359

      Night Vision Monocular (NVM) T 4: Thirty-four were listed on the serial number
       inventory sheet. Thirty-four were accounted for with no issues concerning serial
       numbers.

      This constituted a 6.1 percent error rate in the sample of 295 NVDs.

      There were 177 NVS 7s reported on-hand that we did not inventory.

      The inventory results were provided to the U.S. advisors and their Iraqi counterparts for
       corrective action.




                                               12
Baghdad Police College.

We sampled 150 NVDs out of the 3674 that were stored at BPC. We discovered eight NVDs
with serial numbers not recorded on the BPC serial number register. Those serial numbers were:

                        0514891                             0514982
                        0515047                             0515092
                        0514877                             0514985
                        0515048                             0516709

Additionally, we found two NVDs that had incorrect serial numbers recorded on the BPC
register. The incorrect numbers were 1511739 and 1511756, but we did find two NVDs with
numbers 0511739 and 0511756. No other serial numbers started with a “1.” The team agreed
these were the correct NVDs with a serial number recording error.

We counted the number of serial numbers recorded on the BPC serial number inventory and
recorded a total of 3,674. However, the total number of NVDs delivered to BPC from AGW was
supposed to be 3,620, as noted on the August 26, 2008 shipping document. Since there were no
NVDs on-hand at BPC prior to that delivery, there was a discrepancy between what AGW
personnel believe they shipped to BPC and what was actually delivered.

The shipping document also indicated that the NVDs were signed for without a serial number
inventory being conducted immediately, a violation of MNSTC-I Policy Statement 15-08, which
requires a joint Coalition/Iraqi serial number inventory on delivery, or a 24-hour Coalition guard
until that serial number inventory is completed. (The serial number inventory was reportedly
completed four days later.)

The NVDs were stored in a double pad-locked connex container, in a fenced secure area with
Iraqi security guards at the gate. There was no written U.S. or Iraqi SOP describing the
procedures to account for and control sensitive items, to include NVDs.

Taji Location Command

The MNSTC-I Logistics Military Assistance Team (LMAT) at the Taji Location Command
reported that they were largely in an oversight/assistance role, with the Iraqis actually running
the Location Command. The LMAT reported that sensitive items, such as NVDs, were
inventoried by serial number upon receipt and that a copy of the serial numbers was then
provided to the MNSTC-I J4. The NVDs were stored in a double-locked connex container inside
a secured warehouse on a guarded compound. When issued to Iraqi units, the unit signed for the
NVDs by serial number. There was no written SOP describing the procedures to account for and
control sensitive items, to include NVDs.

We inventoried 170 of the 867 NVDs stored at Taji Location Command. Of the 170 NVDs
inventoried, 12 serial numbers were missing from the Location Command’s inventory list.
Those serial numbers were:



                                                13
                           53702                     60712
                           53726                     60975
                           53862                     61034
                           54035                     603576
                           54390                     603598
                           60254                     603635

This was an error rate of 7 percent in the sample.

Additionally, we noted that several of the NVDs were possibly damaged due to battery acid
leaking onto the device, as the battery was stored in the same plastic bag as the NVD.

Kirkush Military Training Base

Kirkush Location Command. The LMAT reported that sensitive items, such as NVDs, are
inventoried by serial number on receipt and that a copy of the serial numbers is provided to the
MNSTC-I J4. The NVDs were stored inside a secured warehouse on a guarded compound.
When issued to Iraqi units, the unit signs for the NVDs by serial number. There was no written
U.S. or Iraqi SOP describing the procedures to account for and control sensitive items, to include
NVDs.

We inventoried 332 of 1,267 ATN-NVG 7-21 NVDs stored at the Kirkush Location Command.
(We did not inventory any of the approximately 933 Viper model monocular NVDs on-hand
because of time constraints and their lesser technological capability.) We found eight devices
that had duplicate serial numbers. We identified 28 serial numbers that were not on the Location
Command’s serial number list, representing an 8.4 percent error rate (see below).

6122                           59217             60693                     61718
6144                           59285             60730*                    62096
54875                          59480             60730*                    62582
55809                          59487             60852                     63014
560904                         59628             60990                     63067
57386                          59808             61308                     63079
57756                          60291             61714                     63185
*Actual duplicate serial numbered NVDs.

We also inventoried 16 Canadian-manufactured NVDs and the serial numbers matched the
Location Command’s serial number list.

Kirkush Base Defense Battalion. We conducted an inventory of 131 of the 133 NVDs
maintained by the Base Defense Battalion. (Two were signed out on Iraqi Form 101). The
Battalion’s sub-units were Tower Company, Quick Reaction Force, and Headquarters Company.
The Iraqi serial number inventory records for these sub-units were maintained on hand-written
lists. We noted that the serial numbers on a significant number of the NVDs were very difficult
to read and that, across the Battalion, 21 NVDs had no serial number on them (scratched off or
otherwise missing). Similar to other ISF units visited, none of the Iraqis in the Base Defense
Battalion knew how to get broken NVDs repaired or how to remove irreparable NVDs from their


                                                14
property records. There was no written Iraqi SOP describing the procedures to account for and
control sensitive items, to include NVDs.

There were no material inconsistencies noted in the inventories of Tower Company (15 NVDs)
or the Quick Reaction Force (32 NVDs). However, there were discrepancies in Headquarters
Company. Although the Headquarters Company records were difficult to interpret, it appeared
that they should have had on-hand 86 NVDs, to include 29 broken devices. While there were 86
devices on-hand in the Headquarters Company, we identified 14 NVDs with no corresponding
serial number on the unit’s records (see below).

                      50318                          50323
                      50354                          50939
                      51034                          23 (not an error)
                      50445                          50903
                      50269                          50655
                      51002                          50289
                      50687                          50299

We also found four serial numbers on the unit’s records that had no corresponding NVD in the
Headquarters Company inventory.

In summary, this constituted a 20.9 percent discrepancy rate, explainable in part by the
significant number of NVDs with no serial number.

Coalition Air Force Training Team

NVDs procured for Coalition Air Force Training Team operations are maintained under U.S.-
control and inventoried monthly via serial number. Our team conducted a 100 percent serial
number inventory of the 87 NVDs maintained by the Training Team with no discrepancies
noted.

Iraqi Army 11th Division

During our visit to the 11th Army division, we were accompanied by the Iraqi Joint Headquarters
Inspector General and members of his organization. While the Iraqi Joint Headquarters IG and
his team inspected the 11th Division Property Books to determine the adequacy of the records,
the DoDIG team conducted the physical inventory of the NVDs on-hand in the Division
Headquarters Company and 11 battalions.




                                                15
         Table 2. Quantity Accountability of NVDs in the Iraqi Army 11th Division*

        UNIT            ON-HAND MISS/DESTROYED SIGNED OUT TOTAL
        Div, HHC           57           2           0       59
        42d Bde, HHC       22          0            0       22
        42d Bde, 1st Bn    62         16/6          2       86
        42d Bde, 2d Bn     49           0           0       49
        42d Bde, 3d Bn     40           0           0       40
        43d Bde, HHC       72          0            4       76
        43d Bde, 1st Bn    84           0           0       84
        43d Bde, 2d Bn     82           0           0       82
        43d Bde, 3d Bn     84           0           0       84
          th
        44 Bde, HHC        11           1           0       12
          th       st
        44 Bde, 1 Bn       96           0           1       97
        44th Bde, 2d Bn    97          11           0      108
        11th Div Total    756          36           7      799
       *DoDIG NVD Assessment Team inventory November 6, 2008.


In coordination with the Iraqi Joint Headquarters IG team, we determined the following:

        The serial numbers for the NVDs in 11th Division organizations were either manually
         recorded or entered into a computerized spreadsheet.

        NVDs were signed out to individuals by serial number, recorded either in a property
         register or on Iraqi Army Form 101.

        Although accountability procedures were sound, no written SOPs documented these
         procedures.

        No one knew the process for repairing broken NVDs or how to remove irreparable NVDs
         from the property books.

        Many of the “investigations” for
         missing NVDs had been ongoing
         for extended periods of time.

        Two NVDs in one Battalion had
         been signed out for over a year
         with no “eyes on” accountability.

        The Iraqi Joint Headquarters IG
         team review of property book
         records indicated 755 NVDs
         should be on-hand in the units we
         inventoried; we found 756.
                                                           Figure 3: NVD Inventory at 11th Division
                                                                                                  n


                                                      16
      The Iraqi Joint Headquarters IG team review of property book records accounted for a
       total of 832 NVDs on-hand, missing/destroyed, or signed out in the units we inventoried;
       our inventory and review of records available at the inventory site accounted for 799. (A
       four percent error rate in quantities.)

      Of the 12 units inventoried, five had no material differences, while the remaining seven
       had discrepancies. Most differences found involved serial numbers that were recorded by
       our team but not found in the Iraqi records and vice versa. (Many serial numbers were
       hard to read on the device itself.)

      The seven units had serial number discrepancy rates ranging from 8 percent to 30
       percent, with an average of 13 percent. Overall, the rate of serial number discrepancies in
       the 11th Division serial number record was approximately 9 percent.

Iraqi Special Operations Forces Brigade (See Observation 6 for results of
visit and inventory.)

Recommendations, Client Comments, and Our Response

1.a. We recommend that the Commander, Multi-National Force-Iraq, in coordination with
Multi-National Corps-Iraq and Multi-National Security Transition Command-Iraq complete the
baseline inventory of night vision devices transferred to the Iraqi Security Forces by issuing
further guidance directing U.S. mentors/trainers/advisers to inventory (by unit, device type, and
serial number) all night vision devices in the Iraqi Security Forces, regardless of country of
origin. This includes all Iraqi military units, police organizations, and Counter Terrorism/
Special Operations Forces units.

Client Comments
Commander, MNF-I concurred, noting that the Commander, MNC-I published an order directing
an inventory of NVDs across all Iraqi military, police, and Counter Terrorism/Special Operations
Forces organizations. The inventory will include all NVDs, regardless of country of origin.

Our Response
Commander, MNF-I comments were responsive. We request a copy of the MNC-I order.




                                                17
1.b. We recommend that the Commander, Multi-National Force-Iraq, in coordination with
Multi-National Corps-Iraq and Multi-National Security Transition Command-Iraq, reconcile
night vision device serial number data from the following sources:

          On-hand inventory from Abu Ghraib Warehouse, Taji National Supply Depot,
           Baghdad Police College, and the Location Commands.

          Updates from the Iraqi Joint Headquarters Combined Logistics Operations Center.

          Inventory records from the Ministry of Defense, Ministry of Interior, and Counter
           Terrorism Bureau Night Vision Device Program Managers.

          Department of State export license issuances (provided by the Department of
           Defense Inspector General Night Vision Device Assessment Team).


Client Comments
Commander, MNF-I concurred, indicating that MNC-I and MNSTC-I would collaborate to
reconcile the results of the NVD inventory.

Our Response
Commander, MNF-I comments were responsive. We request a report when MNF-I has
completed the baseline inventory and reconciliation.

1.c. We recommend that the Commander, Multi-National Security Transition Command-Iraq,
in coordination with the Director, Defense Security Cooperation Agency, implement the
provisions of “Directive-Type Memorandum (DTM) 08-041 – Registration and Monitoring of
Defense Articles and Services Provided to Iraq,” September 25, 2008, to include the
establishment of a monitoring system for controlling the export and transfer of defense articles
to the Government of Iraq and/or other groups, organizations, citizens, or residents of Iraq, as
defined within Directive-Type Memorandum (DTM) 08-041. The monitoring system should be
made applicable to NVDs and other defense articles transferred through:

      Formal Foreign Military Sales programs.

      Pseudo-Foreign Military Sales programs.

      Procurement using Iraqi Security Forces Fund or other appropriated funding and not
       through formal or pseudo-Foreign Military Sales programs.

Client Comments
Commander, MNSTC-I concurred, noting that the command had implemented the provisions of
the DTM, providing the first required quarterly report to DSCA on December 31, 2008. The



                                               18
MNSTC-I Accountability Standard Operating Procedure was being updated to include the DTM
provisions, with projected completion in February 2009.

Our Response
Commander, MNSTC-I comments were responsive. We request a copy of the updated SOP.




                                           19
Observation 2. Multi-National Security Transition Command-
Iraq’s Implementation of Policy and Standard Operating
Procedures on Accountability and Control of Sensitive Items.
NVDs were shipped directly from AGW to the Habbaniyah Iraqi Police Service Training
Academy and Numaniyah Location Command, a violation of MNSTC-I Policy Statement 15-08,
dated July 3, 2008.

NVDs were delivered from AGW to BPC and Habbaniyah Iraqi Police Service Training
Academy without a joint U.S./Iraqi serial number inventory being conducted on delivery, also a
violation of MNSTC-I Policy Statement 15-08, dated July 3, 2008.

This occurred because MNSTC-I personnel are unfamiliar with or do not follow published policy
and standard operating procedures.

Such direct shipments remove senior Iraqi logistics personnel from the chain of accountability
and control, and increases the likelihood of misappropriation and theft of sensitive items. Failure
to conduct a joint serial number inventory at the time of transfer further increases that likelihood.
Failure to understand and implement in-country security and accountability requirements for
sensitive items, to include NVDs, until formal turnover to the ISF could also lead to
misappropriation and theft.

Applicable Criteria
Accountability and Control for U.S. Government Property.

Title 40 U.S.C. section 524. Requires accountability and control over USG property. It
states:
       (a) Required. Each executive agency shall –
           (1) maintain adequate inventory controls and accountability systems for property
           under its control.


Accountability and Control for DoD Property.

Directive-Type Memorandum (DTM) 08-041 – Registration and Monitoring of
Defense Articles and Services Provided to Iraq. This document establishes policy,
assigns responsibilities, and sets forth procedures to certify the establishment of a registration
and monitoring system for controlling the export and transfer of defense articles to the GoI
and/or other groups, organizations, citizens, or residents of Iraq. It also designates the DSCA as
the lead agent responsible for developing, implementing, and enforcing the registration and
monitoring policy pursuant to section 1228, Public Law 110-181, “National Defense
Authorization Act for Fiscal Year 2008,” January 28, 2008.




                                                      21
DoD Instruction 5000.64, “Accountability and Management of DoD-Owned Equipment and
Other Accountable Property,” November 2, 2006, provides policy and procedures for DoD-
owned equipment and other accountable property and establishes policy and procedures to
comply with 40 U.S.C. 524.

Sensitive Equipment Items.
DoD 4100.39-M, “Federal Logistics Information System,” Volume 10, Table 61, November
2007, defines sensitive items.

DoD 5105.38-M. “Security Assistance Management Manual, Ch. 8,” October 3, 2003,
specifies responsibilities for Security Assistance Organizations and U.S. Diplomatic Missions
with Security Assistance responsibilities which:

      “Establish and maintain liaison with the U.S. Embassy’s Blue Lantern representatives.”

      “…verify the bona fides of proposed recipients and delivery of defense articles and
       services sold commercially and delivered under an export license.”

      “Develop and promulgate country specific EUM policy, Standard Operating Procedures
       (SOPs)…”

MNSTC-I Memorandum, “Multi-National Security Transition Command-Iraq
Logistics Accountability Standard Operating Procedures,” April 26, 2008. Provides
mandatory direction to all MNSTC-I personnel for the maintenance of material accountability, to
include sensitive items, through the process of acquisition, receipt, storage, and distribution up to
and including the point of issue to the GoI.

MNF-I Memorandum, “Implementation of Multi-National Security Transition
Command-Iraq Logistics Accountability Standard Operating Procedures,” June 5,
2008. This memorandum directed the implementation of the MNSTC-I Logistics
Accountability SOP and directed all MNC-I elements to ensure consistent accountability
standards across the supply chain in Iraq. The issuance of the MNSTC-I Logistics
Accountability SOP provided a basis for MNC-I trainers working with ISF units to train and
advise their Iraqi counterparts on the accountability of arms, ammunition, and other supplies.

Multi-National Security Transition Command-Iraq Policy Statement #15-08,
“Distribution and Issuance of Iraq Security Force Funds (ISFF) or Foreign Military
Sales (FMS) Equipment to the Government of Iraq (GoI)” 3 July 2008. The policy
statement requires that sensitive items, to include NVDs, will be transferred to the ISF only at
TNSD or BPC under specific accountability and control circumstances. Until a joint Coalition-
Iraqi serial number inventory is completed, the sensitive items must be kept under a 24-hour
Coalition guard. Any exceptions to this policy must be approved by the MNSTC-I J4.

MNSTC-I SAO Memorandum “Iraq Golden Sentry End-Use-Monitoring (EUM)
SOP,” September 12, 2008. This document directs the Security Assistance Office (SAO)


                                                 22
Golden Sentry point of contact to establish liaison with the U.S. Embassy Blue Lantern
representative.

Ensuring Involvement of Senior Iraqi Logistics Managers to Achieve
Effective Transfer of Night Vision Device Accountability and Control

Delivery Procedures. In interviews with senior MOI logistics personnel, MNSTC-I SAO
personnel, and MNSTC-I J4 personnel, we determined that shipments of NVDs were delivered
directly to Habbaniyah Iraqi Police Service Training Academy and Numaniyah Location
Command from AGW, which removed the MOI Senior Logistics Officer from visibility over and
responsibility for the materiel. The MOI Senior Logistics Officer stated that he was unaware of
the quantity or location of NVDs in the MOI logistical system, except for the approximately
3,600 currently stored at BPC. He reiterated his desire that all equipment and supplies for the
MOI be delivered to the BPC warehouses. (MNSTC-I reports that over 14,000 NVDs have been
delivered to MOI organizations. With MNSTC-I assistance, we provided delivery
documentation for these NVDs to the U.S. mentors assigned to the MOI Senior Logistics
Officer.)

      Mission 4705 – Delivery Note 80001311 delivered supplies and equipment, to include a
       100 NVDs, from AGW direct to Habbaniyah IPS Academy on July 31, 2008. BPC was
       bypassed on this shipment.

      Mission 4712 – Delivery Note 80001298 delivered supplies and equipment, to include
       one NVD, from AGW direct to Numaniyah Training Academy on July 29, 2008. BPC
       was bypassed on this shipment.

MNSTC-I Policy Statement 15-08, dated July 3, 2008, states that all sensitive items (including
NVDs) will only be hand receipted and transferred to the ISF at TNSD or BPC where there will
be an immediate 100 percent joint serial number inventory. (The MNSTC-I J4 can approve
exceptions, in extraordinary circumstances.)

Joint Inventories of Sensitive Items. In interviews with senior MOI logistics personnel,
MNSTC-I SAO personnel, and MNSTC-I J4 personnel, we determined that shipments of NVDs
were delivered to BPC and Habbaniyah Iraqi Police Service Training Academy without a joint
U.S./Iraqi serial number inventory being conducted at delivery.

      Mission 4705 – Delivery Note 80001311 delivered 100 NVDs from AGW to Habbaniyah
       IPS Academy on July 31, 2008, without a joint inventory being conducted.

      Mission 4804 – Delivery Note 80001679 delivered 3620 NVDs from AGW to BPC on
       September 3, 2008, without a joint inventory being conducted, nor were they guarded by
       U.S. personnel until an inventory was completed. The NVDs were placed into a connex
       container owned and guarded by the Iraqis.

MNSTC-I Policy Statement 15-08, dated July 3, 2008, further states that, if no inventory can be
immediately completed, then coalition forces will place a 24-hour armed guard on the equipment


                                              23
until it can be inventoried. The policy memo states that only in exceptional circumstances can
sensitive items be transferred to ISF below the national depot level (TNSD or BPC) and that this
would require the explicit authority of the MNSTC-I J4. (Policy Statement 15-08 reiterates word
for word the Policy Statement 03-08, dated March 24, 2008.)

Additionally, the MNSTC-I Logistics Accountability SOP, dated April 26, 2008, states on page
11, paragraph 2.4a that Coalition forces remain responsible for the security of weapons and
sensitive items until the completion of a 100 percent serial number inventory and turn over of
ownership via DA Form 3161.

These policies and standard operating procedures were put into place to correct deficiencies
identified in previous DoDIG assessments involving accountability and control of sensitive
items. This particular delivery issue appears to have resulted from a breakdown of MNSTC-I
adherence to its established policies and procedures.

The problem appeared to be most prevalent with respect to the MOI; we did not find evidence of
issues with transferring NVDs in the MOD logistics channels.

Accountability and Control. Forty-six Night Vision Goggle-6 Generation II NVDs were
purchased via the pseudo-FMS process. They require EEUM in accordance with U.S. laws and
regulations. MNSTC-I personnel could not readily determine how the 46 NVDs were
transported from the time of arrival in Iraq to their final destination at TNSD. They subsequently
did so.

We note that none of the 46 devices were misappropriated or stolen. They were all delivered to
the control of the U.S. military trainers working with the Iraqi Air Force.

Effective policy and procedure for security and control of sensitive items from their arrival at
Baghdad International Airport until formal transfer to the Iraqis at TNSD or BPC had been
previously established. However, a lack of understanding of these procedures by MNSTC-I
personnel could lead to a breakdown in the procedures as personnel rotate, thus putting security
and accountability of sensitive items at risk.

In a normal FMS situation in a non-contingency environment, the foreign government owns the
materiel purchased from the time it leaves the U.S. factory and is responsible from that point for
its security and accountability. In the case of Iraq, however, ISFF-procured equipment, to
include sensitive items such as NVDs, has flowed into the country under direct U.S. control and
accountability, whether purchased through the pseudo-FMS or DCS processes. The Iraqis have
only recently begun to fund their own FMS purchases, which are expanding. But, for the near-
term, as with previous ISFF-procured equipment, FMS equipment will be shipped to Iraq via the
U.S. Defense Transportation System and will subsequently be moved in-country under Coalition
control until formal transfer of accountability and control to the ISF at TNSD or BPC.




                                                24
Recommendations, Client Comments, and Our Response

2.a. We recommend that Commander, Multi-National Security Transition Command-Iraq
ensure that assigned personnel adhere to published policy statements and standard operating
procedures regarding the shipment, accountability, and control of sensitive items being
transferred to the Iraqi Security Forces, to include night vision devices.


Client Comments
Commander, MNSTC-I concurred. The MNSTC-I Accountability SOP will be re-issued to each
potential NVD issue location. Liaison Officers and LMAT members will review and become
familiar with the SOP. This process will be repeated quarterly to overcome the constant
challenge associated with turnover of personnel.

Our Response
Commander, MNSTC-I comments were responsive. No additional comments or actions are
required.

2.b. We recommend that Commander, Multi-National Security Transition Command-Iraq
establish a procedure to familiarize all newly assigned personnel with published policy
statements and standard operating procedures regarding the shipment, accountability, and
control of sensitive items being transferred to the Iraqi Security Forces.

Client Comments
Commander, MNSTC-I concurred, referring to actions undertaken in response to
Recommendation 2.a.

Our Response
Commander, MNSTC-I comments were responsive. No additional comments or actions are
required.




                                              25
Observation 3. Adequacy of Iraqi Security Forces Policies
and Standard Operating Procedures for the Accountability
and Control of Night Vision Devices.
At BPC and other Iraqi logistics organizations visited, there did not appear to be any documented
written policy or SOP for accountability and control of sensitive items, to include NVDs,
although actual in-practice procedures were generally adequate.

Although the MOD, MOI, and CTB have formalized MOAs with MNSTC-I for accountability
and control of NVDs, they have not yet issued formal written policies and procedures to establish
internal control processes by which NVDs are received, inventoried, controlled, and issued by
Iraqi organizations and personnel.

As a result, there was the potential for NVD serial numbers to be inaccurately recorded and for
NVDs to become misplaced, lost, or stolen.

Applicable Criteria

Title 40 U.S.C., section 524. Requires accountability and control over USG property. It
states:
       (a) Required. Each executive agency shall –
           (1) maintain adequate inventory controls and accountability systems for property
           under its control.
Foreign Assistance Act, section 505(f). Establishes requirements for technology transfers
in sensitive situations.

Government of Iraq Section 505 Assurance Letter, dated August 14, 2004. This
document establishes the GoI’s agreement to provide the same level of security and
accountability as the USG and to permit the USG representatives to observe and review items
sold under the security assistance program, to include sensitive items.

DoD Instruction 5000.64. “Accountability and Management of DoD-Owned Equipment and
Other Accountable Property,” November 2, 2006:

      Provides policy and procedures for DoD-owned equipment and other accountable
       property and establishes policy and procedures to comply with 40 U.S.C., 524.
      Requires that accountable property records shall be established for all property
       purchased, or otherwise obtained, that are sensitive as defined in DoD 4100.39-M,
       “Federal Logistics Information System,” Volume 10, Table 61, November 2007.

DoD 4100.39-M. “Federal Logistics Information System,” Volume 10, Table 61, November
2007, defines sensitive items and states that such items require a high degree of protection and
control due to statutory requirements or regulations.


                                                      27
DoD 5105.38-M. “Security Assistance Management Manual,” Provides guidance for the
administration and implementation of the security assistance and related activities in compliance
with the Foreign Assistance Act, the Arms Export Control Act, and related statues and directives.

Night Vision Device Memoranda of Agreement with the Ministry of Defense,
Ministry of Interior, and the Counter Terrorism Bureau, dated September 30, 2008,
October 2, 2008, and October 2, 2008, respectively. Earlier versions of these
memoranda existed for the MOD (November 2005) and MOI (November 2006). They have
been recently updated, as noted above. A new MOA was also established with the CTB. These
memoranda establish specific accountability, control, and physical security requirements for the
NVDs transferred to the ISF. They also establish reporting requirements and provide the basis
for U.S. oversight.

MNSTC-I Memorandum, “Multi-National Security Transition Command-Iraq
Logistics Accountability Standard Operating Procedures,” April 26, 2008. Provides
mandatory direction to all MNSTC-I personnel for the maintenance of material accountability, to
include sensitive items, through the process of acquisition, receipt, storage, and distribution up to
and including the point of issue to the GoI.

MNF-I Memorandum, “Implementation of Multi-National Security Transition
Command-Iraq Logistics Accountability Standard Operating Procedures,” June 5,
2008. This memorandum directed the implementation of the MNSTC-I Logistics
Accountability SOP and directed all MNC-I elements to ensure consistent accountability
standards across the supply chain in Iraq. The issuance of the MNSTC-I Logistics
Accountability SOP provided a basis for MNC-I trainers working with ISF units to train and
advise their Iraqi counterparts on the accountability of arms, ammunition, and other supplies.

MNSTC-I Policy Statement #15-08, “Distribution and Issuance of Iraq Security
Force Funds (ISFF) or Foreign Military Sales (FMS) Equipment to the Government
of Iraq (GoI)” July 3, 2008. The policy statement requires that sensitive items, to include
NVDs, will be transferred to the ISF only at TNSD or BPC under specific accountability and
control circumstances. Until a joint Coalition-Iraqi serial number inventory is completed, the
sensitive items must be kept under a 24-hour Coalition guard. Any exceptions to this policy
must be approved by the MNSTC-I J4.


Night Vision Device Inventory Counts
As noted in Observation 1, we conducted full or sample inventories of NVDs at the following
locations/commands to determine the accuracy of inventory records being maintained by MOD,
MOI, and CTB units:

      Iraqi Army 11th Division.
      Abu Ghraib Warehouse (Coalition control).
      Baghdad Police College.
      Iraqi Special Operations Forces.


                                                 28
      Kirkush Military Training Base Location Command (Coalition Control).
      Base Defense Battalion--Kirkush Military Training Base.
      Taji Location Command.
      Taji National Supply Depot.
      Coalition Air Force Training Team.

We inventoried over 2,700 NVDs at these nine locations. After reconciling the serial numbers
observed by our team to the inventory records maintained by unit personnel at each location, we
identified a discrepancy rate of approximately 7 percent.

Standard Operating Procedures

The personnel assigned to the units visited are to be commended for conducting and
documenting serial number inventories despite formal written policies not having been issued by
the MOI, MOD, or CTB.

We did not find a written SOP for the accountability of sensitive items, to include NVDs, in any
of the Iraqi organizations visited, although the actual procedures being practiced were generally
adequate.

However, the discrepancy rates of the serialized inventories conducted indicate that standardized
written policies and procedures for the accountability and control of NVDs are necessary to
institutionalize a more accurate and accountable process to ensure continuity of correct
procedures.

Standardization needs to start at the Ministerial level with promulgation of written policy to
implement the provisions outlined in the NVD MOA each Ministry established with MNSTC-I.
The MNSTC-I SAO has provided each Ministry’s NVD Program Manager with a sample policy
that can be tailored to establish formal written policy to implement the NVD MOAs.

The development and implementation of policy and SOPs for the ISF will be useful for several
reasons:

      SOPs establish management control procedures and ensure an internal control audit trail.

      SOPs reflect continuity of operations and experiences gained.

      SOPs can be used to facilitate the training of new personnel.




                                               29
Recommendation, Client Comments, and Our Response

3. We recommend that the Commander, Multi-National Force-Iraq, in coordination with the
Commander, Multi-National Corps-Iraq and the Commander, Multi-National Security
Transition Command-Iraq, assist and mentor Iraq Ministry and Iraqi Security Forces
counterparts to develop and implement polices and standard operating procedures for night
vision device accountability and control.

Client Comments
Commander, MNF-I concurred. Iraqi self-sustainment is a top priority as set forth in MNC-I
Operations Order 09-01 [Iraqi Sustainment Development Plan]. Significant efforts are ongoing
to assist and mentor Iraqi Ministry and ISF counterparts to develop and implement policies and
standard operating procedures for NVD accountability and control.

Our Response
Commander, MNF-I comments were responsive. We request copies of Iraqi Ministerial policies
and procedures and examples of ISF SOPs codifying accountability of NVDs, once they are
developed and published.




                                              30
Observation 4. In-Country Repair Capability for Night Vision
Devices and Procedures to Dispose of Non-Repairable Night
Vision Devices.
Written policy and SOPs did not exist in the MOD, MOI, CTB, or in other ISF logistics
organizations for the repair and/or final disposition of damaged NVDs.

This occurred because the GoI allowed a maintenance contract for NVD repair at TNSD,
previously paid for by MNSTC-I using ISFF, to expire without having developed any organic
maintenance or alternative contracted capability.

As a result, many broken and damaged NVDs were not being repaired, which reduced
operational capability. Lacking a procedure to drop NVDs damaged beyond repair from
property books in order to requisition new ones further reduced operational capability.

Applicable Criteria
DoD 5105.38-M. “Security Assistance Management Manual,” provides guidance for the
administration and implementation of security assistance and related activities in compliance
with the Foreign Assistance Act, the Arms Export Control Act, and related statutes and
directives.

Modification 1 to MNF-I FRAGO 08-246. MOD 1 to MNF-I FRAGO 08-246 [MoD Radio
and NVD Maintenance Transition], outlined a three-phased plan to facilitate the successful
establishment of an operationally and logistically self-sufficient NVD repair capability. The
FRAGO states that:

       Phase one will be the transition of radio and NVD responsibilities from the United States
       Government (USG) to the Government of Iraq (GoI) – MoD. This phase involves transferring
       USG furnished equipment used to repair radios and NVDs to the MoD in order to make available
       the facilities, tolls and test equipment necessary to perform radio and NVD repair functions.
       Phase two is to facilitate the establishment, improvement and expansion of the MoD radio and
       NVD repair capability and maintenance concept of support. Phase three is the tracking of radio
       and NVD repair. There will be an overlap between phases. Phases 1, 2 and 3 are currently
       ongoing. Phase 1 will end 01 Dec 08. Phase 2 will endure as long as Coalition advisors are
       assigned to support the MoD radio and NVD repair mission. Phase 3 began 31 May 08 and will
       continue until 01 Dec 08 or MoD radio and NVD repair capability reaches an acceptable readiness
       rating.


Memorandum of Agreement between the Iraq Counter Terrorism Bureau and
Multi-National Security Transition Command-Iraq for Enhanced End Use
Monitoring of Night Vision Devices. This MOA, signed October 2, 2008, provides
guidance to the CTB on NVD destruction, loss, theft and demilitarization.




                                                     31
Memorandum of Agreement between the Iraq Ministry of Defense and Multi-
National Security Transition Command-Iraq for Enhanced End Use Monitoring of
Night Vision Devices. This MOA, signed September 30, 2008, provides guidance to the
CTB on NVD destruction, loss, theft and demilitarization.

Memorandum of Agreement between the Iraq Ministry of Interior and Multi-
National Security Transition Command-Iraq for Enhanced End Use Monitoring of
Night Vision Devices. This MOA, signed October 2, 2008, provides guidance to the CTB on
NVD destruction, loss, theft and demilitarization.

MNSTC-I Night Vision Device Maintenance Contract
Until May 31, 2008, a USG-funded contractor provided maintenance for NVDs provided to the
ISF at a facility located at TNSD. That USG-funded contract ended on May 31, 2008. All
equipment at the TNSD Radio and NVD Repair Facility was inventoried and turned over to the
MoD. However, the GoI subsequently allowed the contract to expire, so there was no active
maintenance program to repair ISF NVDs. The contractor remained in place, but only on a
limited basis to advise and train Iraqi Army personnel on NVD maintenance until December 31,
2008. The MNSTC-I J4 was working with MNSTC-I contracting personnel to invoke the last
option of the old contract to extend its life to May 31, 2009, in order to reestablish a NVD
maintenance program for the ISF. The contract extension would cover NVD maintenance and
the training until May 31, 2009.

Broken and/or Damaged Night Vision Devices
Broken and/or Damaged Night Vision Devices at Kirkush Military Training Base

At Kirkush Military Training Base
(KMTB), the team visually
inspected and recorded the serial
numbers of 332 of the 2,200
NVDs warehoused at the location.
The 332 NVDs inventoried were
type ATN-NVG 7-21s. Of the 332
inventoried, 16 NVDs, or 5
percent, were broken or damaged.
Extrapolated to the total number of
NVDs at the KMTB, an estimated
110 could be unserviceable.

The assessment team observed
and inspected several large
                                  Figure 4: Unserviceable NVDs at KMTB Location Command
boxes containing broken or
damaged NVDs. The U.S. military personnel assigned to the Location Command, who actually
managed the warehouse, stated that the inoperable NVDs were there when they arrived to
assume their duties. They had no documented plan or process to fix the broken and/or damaged
NVDs, send them to be repaired, or to dispose of them if they were irreparably damaged. As


                                             32
NVDs were damaged and rendered inoperable, the serial numbers of the damaged NVDs were
still retained on the inventory data sheets, stored at the Location Command.

Broken and/or Damaged NVDs at the Iraqi Army 11th Division

At the Iraqi Army 11th Division, the assessment team visually inspected and recorded the serial
numbers of 761 NVDs, a number of which were damaged or broken. The 11th Division had no
apparent plan or process to fix the broken and/or damaged NVDs, send them to be repaired, or to
dispose of them if they were irreparably damaged.

In the course of our assessment of NVDs at the Iraqi Army 11th Division, we interviewed the
Deputy Chief of Staff for Logistics and the MOD Program Manager for EUM/EEUM. The
deputy Chief of Staff for Logistics said, “We have problems with all sorts of equipment. Thank
you for all the equipment; however, we have no mechanisms in place for inspections,
accountability, control, and training.” He further stated that the 11th Division and the Iraqi Army
in general, has received no training in how to store and maintain the NVDs. He also complained
that the batteries that came with the NVDs were of low quality, discharging quickly or leaking.

Broken and/or Damaged NVDs at Taji Location Command

At the TNSD Location Command, the assessment team visually inspected and recorded the serial
                                                  numbers of 170 NVDs out of 867 stored
                                                  at that location. The batteries that power
                                                  the NVDs were stored in the same
                                                  plastic bag as the NVDs. We noted that
                                                  several of the NVDs were possibly
                                                  damaged due to these batteries leaking
                                                  acid onto the device. The Location
                                                  Command had no apparent documented
                                                  plan or process to fix the broken and/or
                                                  damaged NVDs, send them to be
                                                  repaired, or to dispose of them if they
                                                  were irreparably damaged.




       Figure 5: NVD Damaged by Leaking Battery

Broken and/or Damaged NVDs at Iraqi Special Operations Forces
At the ISOF Brigade in Baghdad, the assessment team held discussions with members of the
Iraqi Special Forces and their U.S. advisors regarding the method of repair for NVDs not
purchased under the FMS program. Some NVDs required maintenance; however, the ISOF
Brigade did not have a process or plan to repair the NVDs themselves or to send them away for
maintenance. MNSTC-I personnel present stated they believed this NVD repair and
maintenance shortcoming would be handled in a future National Maintenance Contract.


                                                33
In the meantime, a U.S. logistics advisor stated that NVDs purchased through the FMS program
had been returned to the United States for routine repair, a process taking several months.
Specifically, 159 ISOF Army-Navy Passive Vision System 7B (AN/PVS-7B) night vision
goggles had been sent to the United States for maintenance. All 159 NVDs had been repaired
and eventually returned.

Conclusion
For damaged and broken NVDs, there is no in-country ISF repair capability in place, or a
disposition or exchange process. Nor are there policies and procedures for how to manage
maintenance from the operator to the depot maintenance level.

Recommendations, Client Comments, and Our Response

4.a. We recommend that the Commander, Multi-National Security Transition Command-Iraq,
in coordination with the Ministry of Defense, Ministry of Interior and Counter Terrorism
Bureau, establish a maintenance capability for Iraqi Security Forces night vision devices.

Client Comments
Commander, MNSTC-I concurred. With GoI approval, MNSTC-I has completed a statement of
work for contract NVD repair at Taji. A contract proposal is expected from the Army
Electronics Command by February 12, 2009.

Our Response
Commander, MNSTC-I comments were responsive. We request a copy of the NVD
maintenance/repair contract, once approved.

4.b. We recommend that the Commander, Multi-National Force-Iraq, in coordination with
Commander, Multi-National Corps-Iraq and Commander, Multi-National Security Transition
Command-Iraq, assist and mentor their counterparts in the Ministry of Defense, Ministry of
Interior and Counter Terrorism Bureau in developing written policy and standard operating
procedures for the repair or final administrative disposition of damaged night vision devices.

Client Comments
Commander, MNF-I concurred, noting that FRAGO 08-246 outlined a three-phased plan to
facilitate the successful establishment of an operational and logistically self-sufficient NVD
repair capability that can be transitioned to and maintained by the GoI.

Our Response
Although Commander, MNF-I concurred with the recommendation, the client comments were
only partially responsive. The response did not address development of written policy and SOPs
by the MOD, MOI, and CTB for repair or final disposition of damaged NVDs . We request a
copy of those policies, procedures, and SOPs, once completed.




                                                34
Observation 5. Multi-National Security Transition Command-
Iraq’s Implementation of the Department of State Blue
Lantern Program.
MNSTC-I has not developed or implemented procedures for the execution of the DoS Blue
Lantern Program, which requires routine EUM of NVDs procured through DCS and supplied to
the ISF. MNSTC-I personnel were uncertain of the routine EUM requirements for NVDs
procured through methods other than FMS.

This occurred because of a lack of clear definition of roles, responsibilities and requirements for
Blue Lantern implementation in Iraq between DoD and DoS. In addition, MNSTC-I internal
controls for the accountability of NVDs transferred to the ISF were, in general, insufficient to
provide adequate oversight.

Additionally, within DoD, there was no guidance to the field from the Defense Technology
Security Administration (DTSA) defining MNSTC-I’s responsibility for NVDs procured through
DCS, and therefore requiring routine EUM under the DoS Blue Lantern Program.

The use of multiple purchasing mechanisms for NVDs by MNSTC-I led to further confusion
among its personnel regarding when and how routine EUM requirements applied.

As a result, MNSTC-I procured and provided approximately 19,000 NVDs under the auspices of
the Blue Lantern program without “reasonable assurance” that the GoI was complying with the
related requirements imposed by the USG with respect to use, transfer, and security of defense
articles.

Applicable Criteria

Arms Export Control Act, Section 40A. “End-use Monitoring of Defense Articles and
Services”

Sec 40A(2)(A) “shall provide for the end-use monitoring of defense articles and defense services
in accordance with the standards that apply for identifying high-risk exports for regular end-use
verification.”

Sec 40A(2)(B) “shall be designed to provide reasonable assurance that the recipient is complying
with the requirements imposed by the USG with respect to use, transfers, and security of defense
articles and defense services; and such articles and services are being used for the purposes for
which they are provided.”

International Traffic in Arms Regulations. Implementing regulations for the Arms Export
Control Act (AECA), specifies the United States Munitions List.




                                                35
Foreign Assistance Act.

    Section 505. Permits observation of use of articles, services, and training.

    Section 515. Requires overseas management of assistance and sales programs.

Government of Iraq Section 505 Assurance Letter, dated August 14, 2004. GoI
agreement to provide the same level of security and accountability as the U.S. and to permit the
USG to observe and review items sold under the security assistance program.

DoD Directive 5105.72. "Defense Technology Security Administration (DTSA)", July 28,
2005, establishes DTSA and defines its mission, responsibilities and functions, relationships, and
authorities, as prescribed herein.

DoD Instruction 2040.02. “International Transfers of Technology, Articles, and Services,”
July 10, 2008, establishes policy, assigns responsibility, and provides instructions for the
international transfer of dual-use and defense-related technology, articles, and services.

DoD Instruction 5000.64. “Accountability and Management of DoD-Owned Equipment and
Other Accountable Property,” November 2, 2006, provides policy and procedures for DoD-
owned equipment and other accountable property and establishes policy and procedures to
comply with 40 U.S.C. 524.

DoD Instruction 5010.40. “Managers’ Internal Control Program Procedures,” January 4,
2006, states that management internal control procedures are basic to USG accountability and are
specified in this instruction.

DoD 5105.38-M. “Security Assistance Management Manual, Ch. 8,” October 3, 2003.
Specifies responsibilities for Security Assistance Organizations and U.S. Diplomatic Missions
with Security Assistance responsibilities which:

      “Establish and maintain liaison with the U.S. Embassy’s Blue Lantern representatives.”

      “…verify the bona fides of proposed recipients and delivery of defense articles and
       services sold commercially and delivered under an export license.”

      “Develop and promulgate country specific EUM policy, Standard Operating Procedures
       …”

DoD 5200.08-R. “Physical Security Program,” April 9, 2007, implements DoD policies and
minimum standards for the physical protection of DoD personnel, installations, operations, and
related resources; to include the security of weapons systems and platforms.

MNSTC-I SAO Memorandum. “Iraq Golden Sentry End-Use-Monitoring (EUM) SOP,”
September 12, 2008. Directs the SAO Golden Sentry point of contact to establish liaison with
the U.S. Embassy Blue Lantern representative.


                                               36
MNSTC-I Memorandum, “Multi-National Security Transition Command-Iraq
Logistics Accountability Standard Operating Procedures,” April 26, 2008. April 26,
2008. Provides mandatory direction to all MNSTC-I personnel for the maintenance of material
accountability through the process of acquisition, receipt, storage, and distribution up to and
including the point of issue to the GoI.

MNF-I Memorandum, “Implementation of Multi-National Security Transition
Command-Iraq Logistics Accountability Standard Operating Procedures,” June 5,
2008. This memorandum directed the implementation of the MNSTC-I Logistics
Accountability SOP and directed all MNC-I elements to ensure consistent accountability
standards across the supply chain in Iraq. The issuance of the MNSTC-I Logistics
Accountability SOP provided a basis for MNC-I trainers working with ISF units to train and
advise their Iraqi counterparts on the accountability of arms, ammunition, and other supplies.

MNF-I FRAGO 08-302 [Iraqi Security Forces Night Vision Device Inventory],
dated 031445CJUL08. Directed an inventory of NVDs provided to the ISF, but only
covered the Iraqi Army, not the various police organizations.

MNSTC-I - Blue Lantern Program
The Blue Lantern Program was established under section 40A of the AECA to monitor the end-
use of commercially exported defense articles, services, and related technical data subject to
licensing under the AECA. The program is administered by the Directorate of Defense Trade
Controls, Bureau of Political-Military Affairs Bureau, DoS. They are responsible for
administering the International Traffic in Arms Regulations, which implement the AECA. Blue
Lantern end-use monitoring includes pre-license and post-shipment checks for DCS of United
States Munitions List items. The program strives to provide a “reasonable assurance” that the
recipient is complying with the requirements imposed by the USG with respect to use, transfer,
and security of the defense articles and defense services. Furthermore, the Blue Lantern program
is supposed to ensure that such articles and services are being used for the purposes for which
they are provided.

In the case of Iraq, under National Security Presidential Directive-36, dated May 11, 2004, the
DoD, and CENTCOM specifically, was delegated USG authority over security operations in
Iraq. MNSTC-I received the training and equipping mission for the ISF, and for the related
security assistance mission. Normally, this would have fallen under the authority of the
Ambassador in a conventional Embassy operating environment. The host country government
would procure U.S.-licensed military equipment that falls under Blue Lantern and the Embassy’s
SAO would then perform EUM. In this case, the DoS believed that the responsibility for post-
shipment delivery monitoring of NVDs under its Blue Lantern program devolved to MNSTC-I
as the “actual procurer” of NVDs. However, MNSTC-I personnel did not fully understand the
implications and responsibilities associated with post-licensing and shipment EUM requirements
for monitoring of the NVDs under Blue Lantern.

The Security Assistance Management Manual provides specific details on the EUM process for
items purchased through FMS, which are covered under DoD’s Golden Sentry Program. There


                                               37
is no similar detailed guidance in place from either the DoS or DoD that applies to the Blue
Lantern Program to guide MNSTC-I regarding its post-delivery responsibilities for those
sensitive items procured through DCS with ISFF monies.

DTSA serves as the DOD agency responsible for administering the development and
implementation of DoD technology security policies on international transfers of
defense-related goods, services, and technologies, per DoD Directive 5105.72. Additionally,
DoD Instruction 2040.02, “International Transfers of Technology, Articles, and Services,” states
that DTSA prepares technology transfer control and enforcement policy guidance and
coordinates overall application of DoD policy.

MNSTC-I personnel were generally aware of the purpose of Blue Lantern, but MNSTC-I’s SOPs
did not specifically delineate its responsibilities and requirements for the program. The SAO
“Iraq Golden Sentry End-Use-Monitoring (EUM) SOP,” directs the SAO Golden Sentry point of
contact to “establish and maintain liaison with the U.S. Embassy Blue Lantern Program
representatives,” but provides no guidance on how to implement the program. The MNSTC-I
Logistics Accountability SOP does not mention Blue Lantern. The SAO EUM Officer
responsible for the DoD Golden Sentry EUM program was fully aware of his EUM
responsibilities for NVDs purchased via the FMS program. However, it was his understanding
that J4 personnel were responsible for Blue Lantern routine EUM of NVDs purchased through
DCS with ISFF. J4 personnel are responsible for all purchases made with ISFF, but they were
not aware of their having any Blue Lantern routine EUM responsibilities for NVDs.

While in Iraq, the DoD IG team worked with DoS Blue Lantern representatives, the Defense
Security Cooperation Agency (DSCA), the MNSTC-I SAO EUM Officer, and MNSTC-I J4
Officers to develop a process for MNSTC-I Blue Lantern compliance. (Refer to Figure 5,
“Accountability of NVDs.”) MNSTC-I J4 and SAO will now obtain NVD types and serial
numbers from the completed baseline inventory and record them in a MNSTC-I NVD database.
Generation and figure of merit (FOM) 13 characteristics for the NVDs will be determined by the
SAO and J4. Generation I NVDs and NVDs with a FOM of less than 689 will be kept in the
NVD database and monitored under Blue Lantern routine EUM. Generation II NVDs and NVDs
with a FOM of 689 or greater will be placed in the DSCA Security Cooperation Information
Portal (SCIP) database under a “ghost” Military Articles and Services List for Blue Lantern
routine EUM. Separating the NVDs requiring routine EUM under Blue Lantern in this way will
allow MNSTC-I to prioritize scarce resources to account for NVDs with a greater technical and
operational capability.




13
  The figure of merit is calculated by multiplying the resolution x the signal to noise ratio. Generally used by the
USG to designate the technical capability or “generation” of the device.


                                                         38
                Blue                                             GOLDEN 
              Lantern                                            SENTRY
             Obtain all serial #s



               Database entry                                    FMS MASL SCIP
                of all serial #s                                     (SAO)
                                                                 Enhanced EUM

                 Determine 
                 generation                  GEN II or +
                  by FOM                    (FOM 689 +)




                                          GHOST MASL SCIP
              GEN I or less than 
                                              (SAO)
                689 FOM (J4)
                Routine EUM                 Routine EUM


                             Figure 6. Accountability of NVDs



Recommendations, Client Comments, and Our Response

5.a. We recommend that the Commander, Multi-National Security Transition Command-Iraq
ensure all Night Vision Device serial numbers from the completed baseline inventory are
entered into a Night Vision Device database for routine End Use Monitoring under the Blue
Lantern program, less those procured through actual Foreign Military Sales or pseudo-Foreign
Military Sales case procedures.

Client Comments
Commander, MNSTC-I concurred, noting that inventories of NVDs at Abu Ghraib, TNSD, and
BPC had taken place between August and November 2008. During the inventories, all
Generation II and higher level NVD serial numbers were entered into the Serial Number
Database maintained by the MNSTC-I J4 Accountability Section and the data is available for
EUM by the SAO office. MNSTC-I will continue to reconcile all data pertaining to GEN II or
higher level NVDs.

Our Response
Although Commander, MNSTC-I concurred with recommendation, the client comments were
not responsive. When the NVD baseline inventory is completed, we recommend that the
MNSTC-I J4 account for all NVDs, regardless of Generation, in the MNSTC-I J4 Accountability
Section’s J4 Serial Number Database. Those NVDs less than Generation II are still serial


                                              39
numbered items and are accountable. The subset that are Generation II or higher should be
handled as outlined in recommendation 5.b. We ask that MNSTC-I reconsider their response to
recommendation 5.a.

 5.b. We recommend that the Commander, Multi-National Security Transition Command-Iraq
determine which night vision devices from the recommendation 5.a. database are Generation II
and/or have a Figure of Merit of 689 or higher and enter their serial numbers into the Defense
Security Cooperation Administration Security Cooperation Information Portal database for
routine End Use Monitoring under the Blue Lantern Program.

Client Comments
Commander, MNSTC-I concurred, noting that all serial numbers of Generation II or higher level
NVDS are now being entered into the SCIP database maintained by the MNSTC-I SAO.

Our Response
The client comments are responsive and conform to procedures coordinated with MNSTC-I,
DSCA, and DoS during the assessment’s fieldwork phase. No further comments are required.

5.c. We recommend that the Commander, Multi-National Security Transition Command-Iraq
document and coordinate these procedures in internal Multi-National Security Transition
Command-Iraq Standard Operating Procedures. (See Recommendation 6.a: Multi-National
Security Transition Command-Iraq J4 Logistics Accountability Standard Operating
Procedures.)

Client Comments
Commander, MNSTC-I concurred. The MNSTC-I J4 will incorporate these procedures in the
January 31, 2009 update of the Accountability SOP.

Our Response
The client comments are responsive. While no additional comments are required, we request a
copy of the updated Accountability SOP.

5.d. We recommend that the Commander, Multi-National Security Transition Command-Iraq
use the Foreign Military Sales process for all future night vision device purchases, whether the
funds come from the Iraqi Security Forces Fund or the Government of Iraq.


Client Comments
Commander, MNSTC-I concurred. If the funding source for future NVD purchases is
U.S.-controlled ISSF, the procurement will go through the FMS process. MNSTC-I will
generate a FRAGO and a Commanding General policy letter to meet this intent. MNSTC-I will
encourage the GoI to use the FMS process also, although they cannot be compelled to do so.




                                                40
Our Response
The client comments are responsive. While no additional comments are required, we request a
copy of the referenced FRAGO and policy letter.

Revised Recommendation
Because of client comments, we revised draft recommendation 5.e., redirecting it from DTSA to
DSCA, as written below.

5.e. We recommend that Director, Defense Security Cooperation Agency, in coordination with
the Department of State, Defense Technology Security Administration, and Multi-National
Security Transition Command-Iraq, issue clear policy guidance to Department of Defense
elements for post-delivery End Use Monitoring requirements applicable to night vision devices
and other sensitive items transferred to the Iraq Security Forces, purchased through Direct
Commercial Sales.

Client Comments
DTSA non-concurred with draft recommendation 5.e., stating that DSCA, vice DTSA, was
responsible for DoD policy for EUM, citing a September 2001 memorandum from the
Undersecretary of Defense for Policy that designated DSCA as the lead agency for DoD’s EUM
program. DTSA stated that DoS has EUM responsibilities for NVDs procured through DCS.
DTSA went on to state that they are updating DoD’s policy regarding international transfers and
exports of night vision systems and related technology. The update should help enhance DoD’s
ability to ensure protection of critical night vision system capabilities.

Our Response
While DoS normally has EUM responsibility for direct commercial sales items, to include
NVDs, the situation in Iraq involving MNSTC-I is unique. MNSTC-I is the contract authority
for NVDs using the ISFF, vice the GoI. In a letter dated August 29, 2008 to DSCA from DoS,
the Acting Assistant Secretary, Bureau of Political Military Affairs writes “The Department’s
normal Blue Lantern procedures will not be conducted for MNSTC-I contracted material where
MNSTC-I accepts delivery of the material for subsequent transfer to the Government of Iraq.
This will remain a MNSTC-I responsibility.” 14 Given the current situation in Iraq and the
unique situation involving MNSTC-I, any EUM of NVDs procured through DCS will have to be
done by MNSTC-I. Given the constant turnover of personnel in MNSTC-I, written policy and
guidance is required to delineate the responsibilities of the players involved. Based on DTSA’s
comments and preliminary coordination with DSCA, we have redirected this recommendation to
DSCA, as written above, and ask that they respond to the final report.




14
     Letter from the Acting Assistant Secretary, Bureau of Political Military Affairs, Department of State, to Director,
     Defense Security Cooperation Agency, dated August 29, 2008.


                                                           41
Observation 6. Iraqi Special Operations Forces Night Vision
Devices.
During a judgmental sample inventory at the ISOF Brigade, it was determined that 167 AN/PVS-
14 and 16 AN/PVS-7 NVDs were not properly accounted for in MNSTC-I records. In the case
of the AN/PVS-14s, MNSTC-I had no record of procuring them.

Forty-one of the 167 AN/PVS-14 NVDs were still on the Combined Joint Special Operations
Task Force-Arabian Peninsula property books.

It is possible that there are more AN/PVS-7 NVDs in the ISOF inventory that MNSTC-I has not
accounted for since the judgmental sample only included 194 of ISOF’s 755 AN/PVS-7s on-
hand at the ISOF Brigade.

Several NVDs in the ISOF inventory were determined to exceed the maximum capability (1250
FOM) authorized for export to Iraq.

This apparently occurred because U.S. Special Forces personnel had transferred NVDs directly
to their Iraqi counterparts or had replaced tubes on unserviceable NVDs. In some instances, the
proper documentation of these transactions and coordination with MNSTC-I has not occurred.
Nor were the U.S. Special Forces personnel mindful of the export ceiling on NVD FOM for Iraq.

The lack of serial number accountability for these or any other NVDs could lead to
misappropriation and theft. Lack of accountability could also hinder criminal prosecutions and
administrative actions against those involved in misappropriation and theft.

Transfer of NVDs to the ISF with capabilities exceeding export limitations could lead to a loss of
technological advantage over potential adversaries.

Applicable Criteria
Accountability and Control for U.S. Government Property.

Title 40 U.S.C., Section 524. Requires accountability and control over USG property. It
states:
       (a) Required. Each executive agency shall –
           (1) maintain adequate inventory controls and accountability systems for property
           under its control.


Arms Export Control Act Section 40A. “End-use Monitoring of Defense Articles and
Services”




                                                      43
Sec 40A(2)(A) “shall provide for the end-use monitoring of defense articles and defense services
in accordance with the standards that apply for identifying high-risk exports for regular end-use
verification.”

Sec 40A(2)(B) “shall be designed to provide reasonable assurance that the recipient is complying
with the requirements imposed by the USG with respect to use, transfers, and security of defense
articles and defense services; and such articles and services are being used for the purposes for
which they are provided.”

International Traffic in Arms Regulations. Implementing regulations for AECA, specifies
the United States Munitions List.

Foreign Assistance Act (FAA). Reorganized U.S. foreign assistance programs and
separated military and non-military aid.

      Sec 505. Provides guidance on technology transfers and sensitive item procurement.
       Permits observation of use of articles, services, and training.

      Sec 515. Requires overseas management of assistance and sales programs.

Accountability and Control for DoD Property.

Directive-Type Memorandum (DTM) 08-041 – Registration and Monitoring of
Defense Articles and Services Provided to Iraq. “Directive-Type Memorandum (DTM)
08-041 – Registration and Monitoring of Defense Articles and Services Provided to Iraq,”
September 25, 2008, establishes policy, assigns responsibilities, and sets forth procedures to
certify the establishment of a registration and monitoring system for controlling the export and
transfer of defense articles to the GoI and/or other groups, organizations, citizens, or residents of
Iraq. It also designates the DSCA as the lead agent responsible for developing, implementing,
and enforcing the registration and monitoring policy pursuant to section 1228, Public Law 110-
181, “National Defense Authorization Act for Fiscal Year 2008,” January 28, 2008.

DoD Instruction 5000.64. “Accountability and Management of DoD-Owned Equipment and
Other Accountable Property,” November 2, 2006, provides policy and procedures for DoD-
owned equipment and other accountable property and establishes policy and procedures to
comply with 40 U.S.C. 524.

Sensitive Equipment Items.

Government of Iraq Section 505 Assurance Letter, dated August 14, 2004. This
document establishes the GoI’s agreement to provide the same level of security and
accountability as the U.S. and to permit the USG to observe and review items sold under the
security assistance program, to include sensitive items.




                                                 44
DoD Directive 5105.72. "Defense Technology Security Administration (DTSA)," July 28,
2005, establishes the DTSA and defines its mission, responsibilities and functions, relationships,
and authorities, as prescribed herein.

DoD Instruction 2040.02. “International Transfers of Technology, Articles, and Services,”
July 10, 2008, establishes policy, assigns responsibility, and provides instructions for the
international transfer of dual-use and defense-related technology, articles, and services, by
implementing relevant portions of section 1701 et seq. of title 50, U.S.C.

DoD 4100.39-M. “Federal Logistics Information System,” Volume 10, Table 61, November
2007, defines sensitive items.

DoD 5105.38-M. “Security Assistance Management Manual, Ch. 8,” October 3, 2003,
specifies responsibilities for Security Assistance Organizations and U.S. Diplomatic Missions
with Security Assistance responsibilities which:

      “Establish and maintain liaison with the U.S. Embassy’s Blue Lantern representatives.”

      “…verify the bona fides of proposed recipients and delivery of defense articles and
       services sold commercially and delivered under an export license.”

      “Develop and promulgate country specific EUM policy, Standard Operating Procedures
       …”

DoD 5200.08-R. “Physical Security Program,” April 9, 2007, implements DoD policies and
minimum standards for the physical protection of DoD personnel, installations, operations, and
related resources; to include the security of sensitive items.

MNSTC-I Memorandum, “Multi-National Security Transition Command-Iraq
Logistics Accountability Standard Operating Procedures,” April 26, 2008. Provides
mandatory direction to all MNSTC-I personnel for the maintenance of material accountability, to
include sensitive items, through the process of acquisition, receipt, storage, and distribution up to
and including the point of issue to the GoI.

MNF-I Memorandum, “Implementation of Multi-National Security Transition
Command-Iraq Logistics Accountability Standard Operating Procedures,” June 5,
2008. This memorandum directed the implementation of the MNSTC-I Logistics
Accountability SOP and directed all MNC-I elements to ensure consistent accountability
standards across the supply chain in Iraq. The issuance of the MNSTC-I Logistics
Accountability SOP provided a basis for MNC-I trainers working with ISF units to train and
advise their Iraqi counterparts on the accountability of arms, ammunition, and other supplies.

MNSTC-I Policy Statement #15-08, “Distribution and Issuance of Iraq Security
Force Funds (ISFF) or Foreign Military Sales (FMS) Equipment to the Government
of Iraq (GoI)” July 3, 2008. The policy statement requires that sensitive items, to include
NVDs, will be transferred to the ISF only at TNSD or BPC under specific accountability and


                                                 45
control circumstances. Until a joint Coalition-Iraqi serial number inventory is completed, the
sensitive items must be kept under a 24-hour Coalition guard. Any exceptions to this policy
must be approved by the MNSTC-I J4.

MNSTC-I SAO Memorandum. “Iraq Golden Sentry End-Use-Monitoring (EUM) SOP,”
September 12, 2008. Directs the SAO Golden Sentry point of contact to establish liaison with
the U.S. Embassy Blue Lantern representative to assist in establishing an EUM program for
sensitive items of equipment licensed by DoS for export as a DCS.

Night Vision Device Memoranda of Agreement with the Ministry of Defense,
Ministry of Interior, and the Counter Terrorism Bureau, dated September 30, 2008,
October 2, 2008, and October 2, 2008, respectively. Earlier versions of these
memoranda existed for the MOD (November 2005) and MOI (November 2006). They have
been recently updated, as noted above. A new MOA was also established with the CTB. These
memoranda establish specific accountability, control, and physical security requirements for the
NVDs transferred to the ISF. They also establish reporting requirements and provide the basis
for U.S. oversight.


Iraqi Special Operations Forces Brigade Night Vision Devices
Based on a briefing by the ISOF Brigade Logistics Officer and his U.S. Special Operations
Forces counterpart regarding the Brigade’s NVD accountability and control program, we
determined the following:

      The U.S. training team expressed a concern with the quality of the NVD equipment the
       Iraqis were receiving though ISFF-funded DCS, which were not as good of quality
       (build, practicality, and durability) as U.S. military type NVDs.

      The significant number of Canadian-produced NVDs in use were mounted on a harness
       worn under the helmet, which created problems with the hinged flip-up capability

      The Brigade’s preferred NVD is the U.S.-produced AN/PVS-7B/7D, which was designed
       for military use.

      ISOF conducts a 100 percent serial number inventory upon receipt of any NVDs. in order
       to add them to the ISOF unit records. It conducts monthly inventories thereafter.

      The ISOF units have company-level property books that they use to sign the NVDs (as
       well as other sensitive items such as firearms) in and out of the armory.

      There was a 100 percent serial number match with ISOF records when we inventoried
       194 of the on-hand 755 AN/PVS-7s NVDs. (We identified two AN/PVS-7 NVDs with
       the same serial number, as recorded on the ISOF records.)




                                               46
               Figure 7: NVD Inventory at the Iraqi Special Operations Forces Brigade

   However, when results of this inventory were compared with data in the MNSTC-I SAO
    SCIP database for EUM, we determined the following:

                Serial # 2306—listed in SCIP in wrong location (corrected).

                Serial #s 2628, 2658, 2733, 2734, 2738, 2746, 2936, and 2988 were in SCIP
                 database, location undetermined. (Updated to correct location.)

                Serial #s 2888, 3014, 3102, 3105, 3106, 3108, 3111 not in SCIP database.
                 (They were subsequently added to the database.)

   The ISOF had 167 AN/PVS-14 monocular night scopes that were not on the MNSTC-I
    serialized accountability list for EEUM, as required. The MNSTC-I SAO was not
    tracking them because they did not procure them via an
    ISFF-financed pseudo-FMS case. Although aware of the existence of these devices,
    MNSTC-I J4 had not been placed them in master NVD database.

   Indications are that these AN/PVS-14 NVDs were “given” to the ISOF by their U.S.
    Special Forces counterparts at sometime in the past.

   Subsequent research by MNSTC-I determined that 41 of the devices were still on the
    Combined Joint Special Operations Task Force—Arabian Peninsula property books (Unit
    Identification Code W4T340—Description SOCCENT ISOF ICTF Balad SOU, IZ).
    MNSTC-I personnel determined the location of these NVDs by using the Logistics



                                                47
         Information Warehouse Property Book Unit Supply Enhanced serial number tracker 15 .

        There was no established repair capability for NVDs procured through DCS, especially
         for non-U.S. NVDs. (MNSTC-I representatives believed this capability would be part of
         a revised MOD National Maintenance contract.) Consequently, U.S. trainers coordinated
         to send 159 AN/PVS 7s back to the United States for repair.

        The AECA and the International Traffic in Arms Regulations identify export restrictions
         on Generation II and above NVDs. The USG uses the FOM to determine the generation
         of NVDs. The maximum FOM for tubes exported to Iraq is 1250. In addition to the
         FOM restriction, the USG has not approved exports of NVDs with light interference
         filters to Iraq. 16

        CTB signed a Letter of Request on August 16, 2008 to purchase via FMS 2,250
         AN/PVS-7 and 2,250 AN/PVS-14 NVDs. The U.S. Army Security Assistance Command
         is developing the Letter of Acceptance. However, it is being held up until an
         investigation is completed involving 21 AN/PVS-7B NVDs with FOM in excess of 1250
         having been found in the ISOF NVD inventory. Two additional sets had light
         interference filters on them. This was determined when 159 ISOF NVDs were sent back
         to the U.S. for maintenance. All 159 NVDs have been repaired and returned, to include
         the 21 with FOM in excess of 1250. Those tubes were replaced with tubes of an
         appropriate FOM (less than FOM 1250).

        It is possible that some of the remaining 596 AN/PVS-7s and 167 AN/PVS-14s in the
         ISOF Brigade inventory have FOM exceeding 1250 and/or have light interference filters
         installed.

        Additionally, the MNSTC-I SAO is working to determine the status of 294
         AN/PVS-7 and 6 AN/PVS-10 NVDs procured for the ISOF on pseudo-FMS case AAB,
         but now believed to be in the possession of various U.S. Army units stationed outside of
         Iraq. (See Observation 8.)

Recommendations, Client Comments, and Our Response
6a. We recommend that the Commander, Multi-National Force-Iraq, in coordination with
Multi-National Security Transition Command-Iraq and the Combined Joint Special Operations
Task Force-Arabian Peninsula, determine the origin of the AN/PVS-14 Night Vision Devices in
the Iraq Special Operations Forces inventory and how they were transferred to the custody of
the Iraq Special Operations Forces.

Client Comments
Commander, MNF-I concurred. Commander, MNC-I has published an order directing the
Commander, Combined Joint Special Operations Task Force-Arabian Peninsula (CJSOTF-AP)

15
   Logistics Information Warehouse Property Book Unit Supply Enhanced is a software system that allows serial
number tracking of equipment across the Army.
16
   A light interference filter protects the eyes from lasers.


                                                      48
to determine the origin the origins of the AN/PVS-14 NVDs in the ISOF inventory and to adjust
CJSOTF-AP property records to reflect the transfer of any NVDs to the ISOF.

Our Response
The client comments are responsive. Although no additional comments are required, we request
a report on the outcome of the MNC-I/CJSOTF-AP effort.

6.b. We recommend that the Commander, Multi-National Force-Iraq, in coordination with U.S.
Central Command and U.S. Special Operations Command, consider restricting the Combined
Joint Special Operations Task Force-Arabian Peninsula from further transfer of sensitive items,
to include night vision devices, to the Iraq Special Operations Forces. If it becomes necessary
on an exceptional basis to make such a transfer, ensure the capabilities of the night vision
devices do not exceed that capability authorized for export to Iraq and that any such transfer is
coordinated with Multi-National Security Transition Command-Iraq so that it can capture serial
numbers and appropriately monitor the Night Vision Devices.

Client Comments
Commander, MNF-I concurred. If it becomes necessary for CJSOTF-AP to make a transfer of
NVDs directly to the ISOF, MNC-I will ensure that they do not exceed the capability authorized
for export to Iraq and that any such transfer is coordinated with MNSTC-I to ensure serial
number accountability.

Our Response
The client comments are responsive. No additional comments are required.

6.c. We recommend that the Commander, Combined Joint Special Operations Task Force-
Arabian Peninsula, in coordination with Multi-National Security Transition Command,
complete the transactions required to drop from the Combined Joint Special Operations Task
Force Property Book any night vision devices transferred to the Iraq Special Operations Forces.

Client Comments
Commander, CJSOTF-AP did not respond to the draft report. However, Commander MNC-I has
issued an order directing Commander, CJSOTF-AP to adjust property records to reflect the
transfer of any NVDs to the ISOF. (See client comments to Recommendation 6.a.)

Our Response
We ask that Commander, CJSOTF-AP respond to the final report.

6.d. We recommend that the Commander, Multi-National Security Transition Command-Iraq
conduct another one hundred percent inventory of the night vision devices held by the Iraq
Special Operations Forces.




                                                49
Client Comments
Commander, MNSTC-I concurred, noting that MNSTC-I plans a 100 percent inventory of ISOF
NVDs on February 28, 2009.

Our Response
The client comments are responsive. While no further comments are required, we ask that
MNSTC-I inform us when the inventory is complete.

6.e.(1) We recommend that the Commander, Army Material Command, in coordination with
the Defense Technology Security Administration and the Multi-National Security Transition
Command–Iraq, determine if any of the remaining AN/PVS-7 and AN/PVS-14 night vision
devices in the Iraqi Special Operation Forces exceed the capability authorized for export to Iraq.


Client Comments
Commander, Army Material Command (AMC) concurred. In-country Logistics Assistance
Representatives will complete this inspection in conjunction with the EUM requirement
performed by MNSTC-I. The inspection of the NVDs will include removal of intensifier tubes
and recording of serial numbers to determine the Generation and FOM of each tube on the spot,
or later, if required.

Our Response
The client comments are responsive. Although no additional comments are required, we ask that
Commander, AMC inform us of the results of the inspection, once completed.

6.e.(2) We recommend that the Commander, Army Material Command, in coordination with
the Defense Technology Security Administration and the Multi-National Security Transition
Command–Iraq, develop a plan to replace any tubes and/or night vision devices found in the
Iraqi Special Operations Forces that exceed the capability authorized for export to Iraq.

Client Comments
Commander, AMC concurred. Any devices with tubes exceeding the prescribed level will be
separated from other devices and sent to a facility-in-country for replacement. MNSTC-I will
likely have to fund an FMS case for replacement tubes. Cross leveling of acceptable tubes
among devices should minimize the number of devices remaining inoperative while new tubes
are procured.

Our Response
The client comments are responsive. Although no additional comments are required, we ask that
Commander, AMC inform us of the final plan for replacement of tubes, if necessary.




                                                50
Observation 7. Need to Update and Coordinate the Multi-
National Security Transition Command-Iraq Logistics
Accountability Standard Operating Procedures and the
Security Assistance Office Standard Operating Procedures.
The J4 Logistics Accountability SOP and the SAO Golden Sentry EUM SOP provide direction
for the accountability and control of sensitive equipment supplied to the ISF. However, neither
of the documents provided guidance for pseudo-FMS cases and, in some instances, the SOPs
appeared to be in conflict with each other.

MNSTC-I personnel were generally not familiar with the oversight requirements associated with
pseudo-FMS cases.

The SAO EUM SOP, signed in September 2008, makes no reference to:

      The MNSTC-I Logistics Accountability SOP, signed in April 2008;

      The MNF-I Chief of Staff Memorandum, signed in June 2008, directing implementation
       of the MNSTC-I Logistics Accountability SOP by all MNC-I units; or

      The MNSTC-I Policy Statement #15-08, signed in July 2008, requiring serial number
       inventories of sensitive items prior to transfer to the Iraqis and that shipments of
       equipment only be made to TNSD and BPC, except in exceptional circumstances.

As a result of the two SOPs not defining procedures for pseudo-FMS cases and lacking sufficient
coordination, J4 and SAO personnel disagreed on their respective responsibilities for the
accountability of sensitive items, including NVDs.

Applicable Criteria

DoD 5105.38-M. “Security Assistance Management Manual, Ch. 8,” October 3, 2003.
Specifies responsibilities for Security Assistance Organizations and U.S. Diplomatic Missions
with Security Assistance responsibilities.

MNSTC-I Memorandum, “Multi-National Security Transition Command-Iraq
Logistics Accountability Standard Operating Procedures,” April 26, 2008. Provides
mandatory direction to all MNSTC-I personnel for the maintenance of material accountability
through the process of acquisition, receipt, storage, and distribution up to and including the point
of issue to the GoI.

MNF-I Memorandum, “Implementation of Multi-National Security Transition
Command-Iraq (MNSTC-I) Logistics Accountability Standard Operating
Procedures (SOP),” June 5, 2008. This memorandum directed the implementation of the
MNSTC-I Logistics Accountability SOP and directed all MNC-I elements to ensure consistent


                                                 51
accountability standards across the supply chain in Iraq. The issuance of the MNSTC-I Logistics
Accountability SOP provided a basis for MNC-I trainers working with ISF units to train and
advise their Iraqi counterparts on the accountability of arms, ammunition, and other supplies.

MNSTC-I SAO Memorandum. “Iraq Golden Sentry End-Use-Monitoring (EUM) SOP,”
September 12, 2008. This directs the SAO Golden Sentry point of contact to establish liaison
with the U.S. Embassy Blue Lantern representative.

MNSTC-I Policy Statement #15-08, “Distribution and Issuance of Iraq Security
Force Funds (ISFF) or Foreign Military Sales (FMS) Equipment to the Government
of Iraq (GoI)” 3 July 2008. The policy statement requires that sensitive items, to include
NVDs, will be transferred to the ISF only at TNSD or BPC under specific accountability and
control circumstances. Until a joint Coalition-Iraqi serial number inventory is completed, the
sensitive items must be kept under a 24-hour Coalition guard. Any exceptions to this policy
must be approved by the MNSTC-I J4.

Multi-National Security Transition Command-Iraq–Night Vision Device
Accountability
The MNSTC-I J4 published its Logistics Accountability SOP in April 2008. It was subsequently
implemented by MNC-I at the direction of a MNF-I Chief of Staff memorandum, signed June
2008. In July 2008, the MNSTC-I Commanding General signed Policy Statement #15-08
referencing the J4 SOP and directing its application to all MNSTC-I personnel, in addition to that
in the J4. The J4 SOP provided guidance to all MNSTC-I and MNC-I personnel, including the
SAO, for accountability and control of sensitive items and had a FMS section, but did not discuss
pseudo-FMS cases.

The SAO “Iraq Golden Sentry End-Use Monitoring (EUM) SOP,” signed in September 2008,
also specified accountability and other responsibilities for the J4, the Military Training Teams
(MiTTs), and the SAO, but it did not reference the J4 SOP, nor did it discuss pseudo-FMS cases.
Furthermore, it purported to task the MiTTs, although MNSTC-I SAO did not have this authority
since they fall under the command authority of MNC-I.

Neither the J4 SOP nor the SAO SOP provided clear guidance for the handling of sensitive items
purchased via a pseudo-FMS case, a security assistance program which uses ISFF funding and
FMS procedures. MNSTC-I personnel did not understand that items purchased via the pseudo-
FMS case process should provide the same oversight as regular FMS purchases for purposes of
sensitive items monitoring under Golden Sentry. Consequently, their SOPs did not reflect these
requirements. A sensitive item purchased through the FMS process, which requires EEUM,
would still require EEUM if purchased through the pseudo-FMS case process and would require
periodic inventories, as required by the Golden Sentry program.

In reference to ISFF monies, the J4 SOP states, “J4 is intrinsically involved in the tracking of
material from vendor through to handover to the GoI.” 17 The SAO SOP also states that the J4
will monitor all purchases with ISFF funds, and tasks the SAO to monitor all purchases for FMS

17
     J4 Logistics Accountability SOP, 26 April 2008, p 3.


                                                            52
cases, but does not include ISFF-purchased items via pseudo-FMS cases. An example where this
has created confusion is the case of the 46 NVDs shipped in September 2008. The NVDs
required EEUM because they were purchased through the Security Assistance program, but they
did not get EEUM while in transit by either the SAO or J4. Neither SAO nor J4 responsible
personnel sufficiently understood the pseudo-FMS case process or its requirements. This lack of
clearly defined roles and responsibilities in MNSTC-I policy and procedures for pseudo-FMS
cases has led to a failure to provide proper Golden Sentry EEUM for sensitive items procured
using this procedure.

Furthermore, the SAO SOP directed MNC-I MiTTs to conduct routine EUM at ISF units and
facilities, and further envisioned continued use of the MiTTs to conduct Golden Sentry
inventories. However, the SAO SOP could not apply to the MiTTs, since MNSTC-I did not
have authority over MNC-I, to which the MiTTs report. Neither MNC-I nor MNF-I
documentation directed the MiTTs to comply with the MNSTC-I SAO SOP.

Recommendations, Client Comments, and Our Response

7.a We recommend that the Commander, Multi-National Security Transition Command-Iraq
revise its J4 Logistics Accountability Standard Operating Procedures to incorporate the Security
Assistance Office, “Iraq Golden Sentry End-Use Monitoring SOP,” and to include pseudo
Foreign Military Sales case definitions, procedures, roles, and responsibilities.

Client Comments
Commander, MNSTC-I concurred. The MNSTC-I J4 is coordinating with the SAO to
incorporate EUM to include pseudo-FMS definitions, roles, and responsibilities.

Our Response
The client comments are responsive. No additional comments are required.

7.b.(1) We recommend that the Commander, Multi-National Force-Iraq issue a directive
requiring that Multi-National Corps-Iraq Military Training Teams and police trainers follow the
revised Multi-National Security Transition Command-Iraq Logistics Accountability Standard
Operating Procedures (recommendation 13.a) regarding transfer and accountability of
equipment to the Iraqi Security Forces, to include sensitive items, such as Night Vision
Devices.

Client Comments
Commander, MNF-I concurred.

Our Response
The client comments were responsive. Although no additional comments are required, we
request a copy of the MNF-I directive requiring MNC-I trainers to follow the revised MNSTC-I
Logistics Accountability SOP.




                                               53
7.b.(2) We recommend that the Commander, Multi-National Force-Iraq issue a directive
requiring that Multi-National Corps-Iraq Military Training Teams and police trainers assist the
Multi-National Security Transition Command-Iraq J4 and Security Assistance Office to conduct
routine End Use Monitoring for sensitive items under the Blue Lantern Program and Enhanced
End Use Monitoring for sensitive items under the Golden Sentry Program.

Client Comments
Commander, MNF-I concurred. They noted that this procedure will work only as long as
MNC-I trainers are assigned to Iraqi military and police organizations. Once the Iraqi military
and police organizations reach an acceptable level of readiness, the MNC-I trainers will no
longer be assigned to them and EUM for NVDs will have to be accomplished through the usual
SAO function.

Our Response
The client comments are responsive. Although no additional comments are required, we request
a copy the MNF-I directive requiring MNC-I trainers to assist MNSTC-I with routine EUM of
sensitive items under the Blue Lantern and Golden Sentry Programs.




                                               54
Observation 8. Misdirected Shipment of Iraqi Special
Operations Forces Night Vision Devices to U.S. Army Units.
MNSTC-I was not able to maintain adequate accountability and control over the 1057 AN/PVS-
7 and 32 AN/PVS-10 NVDs that it had purchased via pseudo-FMS case AAB for the ISOF using
the ISFF monies. These devices were mistakenly delivered to U.S. Special Forces units in the
Unites States.

This occurred because MNSTC-I did not have sufficient external visibility and internal controls
in place throughout the procurement and delivery cycle to account for and manage the NVDs
acquired for distribution to the ISF.

As a result, MNSTC-I was unable to ensure that it received the NVDs it procured with ISFF
monies and that they were provided to the ISOF to enhance its operational capability, as
intended.

Applicable Criteria

Title 40 U.S.C. section 524. Requires accountability and control over USG property. It
states:
       (a) Required. Each executive agency shall –
           (1) maintain adequate inventory controls and accountability systems for property
           under its control.


Public Law 109-13, “Emergency Supplemental Appropriations Act of Defense, the
Global War on Terror, and Tsunami Relief, 2005,” May 11, 2005, and public laws
109-234, 109-289, and 110-28 provided money for the ISFF, to be used to provide funding;
equipment; supplies; services; training; facility and infrastructure repair, renovation, and
construction for the security forces of Iraq.

DoD Instruction 5000.64. “Accountability and Management of DoD-Owned Equipment and
Other Accountable Property,” November 2, 2006 states that DoD Components shall:

       5.2.1. Be accountable for and manage all property acquired, leased, or otherwise obtained
       throughout an assist’s lifecycle: from initial acquisition and receipt, through accountability and
       custody, until formally relieved of accountability by authorized means, including disposition, or
       through a completed evaluation and investigation for lost, damaged, destroyed or stolen property.

       5.2.2. Establish accountable property systems of record; ensure their appropriate integration with
       core financial and other systems and processes, particularly those for logistics and acquisition.

       5.2.3. Establish implementing regulations and procedures, including the assessment and reporting
       of its overall property management maturity level.




                                                      55
DoD 5105.38-M. “Security Assistance Management Manual,” October 3, 2003. Provides
guidance for the administration and implementation of Security Assistance and related activities
in compliance with the Foreign Assistance Act, the AECA, and related statutes and directives.

DoD 5105.38-M also states that DoD 5100.76-M defines sensitive AA&E and outlines
mandatory procedures for handling, storing, protecting, securing, and transporting it. The
AA&E procedures in DoD 5100.76-M also apply to FMS transfers. Sensitive AA&E are items
such as small arms weapons, various types of ammunition, explosives, and special items, such as
night vision devices, that pose a special danger to the public if they fall into the wrong hands.

Background
On September 30, 2005, MNSTC-I, via the Commander, US Army Communications-Electronics
Command purchased 1,057 PVS-7 and 32 AN/PVS-10 Generation II Night Vision Goggles from
the US Night Vision Corporation in Costa Mesa, California (Contract No. W15P7T-05-P-C215).
The NVDs were destined for the ISOF Brigade and were ordered on pseudo-FMS case AAB.

For undetermined reasons, the Army Communications-Electronics Command contract listed “5th
SFG A …… DEFAULT” (5th Special Forces Group at Fort Campbell, Kentucky) in the “Deliver
To” box on the contract documentation. However, a continuation sheet attached to the contract
directed US Night Vision to contact the Defense Contract Management Agency for shipping
instructions.

Ultimately, US Night Vision did not deliver the NVDs to MNSTC-I, but shipped the 1,057 PVS-
7 NVDs to U.S.-based units as follows:

Date                          Quantity              Destination
12/28/2005                    190                   10th Special Forces Group (SFG)
                                                    Fort Carson, Colorado

2/23/2006                     200                   10th SFG, Ft. Carson, CO

3/30/2006                     100                   10th SFG, Ft. Carson, CO

4/17/2006                     200                   10th SFG, Ft. Carson, CO

5/11/2006                     100                   10th SFG, Ft. Carson, CO

6/6/2006                      230                   10th SFG, Ft. Carson, CO

7/17/2006                      37                   5th SFG, Fort Campbell, KY
                            1,057

The 32 AN/PVS-10s were all shipped to 5th SFG, Ft. Campbell, KY.

Subsequently, by undetermined means, 763 of the 1,057 AN/PVS-7 NVDs and 26 of the 32
AN/PVS-10 were transported to Iraq and turned over to the ISOF. Those NVDs are listed on the


                                               56
ISOF property book by serial number. Deploying units from the SFGs in Colorado and
Kentucky may have hand-carried the NVDs to Iraq and turned them over directly to the ISOF,
bypassing MNSTC-I.

However, at the time of the OIG assessment team visit in November, 2008, 294 of the 1,057
AN/PVS-7s and six of the AN/PVS-10s still had not been transported to MNSTC-I and turned
over to the ISOF.

The Undelivered NVDs
During the months leading up to the assessment team visit in November 2008, MNSTC-I made a
concerted effort to track down these missing NVDs. According to MNSTC-I, six of the
AN/PVS-10s were still with 5th SFG at Ft Campbell, KY. The remaining 294 AN/PVS-7 NVDs
were in the possession of various U.S. military units outside Iraq as follows:

Quantity                     Location
5                            A Co 602nd Engineer Battalion, Camp Stanley, Republic of Korea

8                            150th Engineer Battalion, USARNG, MS

22                           Headquarters Company, 779th Engineer Battalion, Fort Bragg, NC

97                           146th Signal Battalion, Jacksonville, FL

1                            228th Medical Company, Ft Sam Houston, TX

93                           20th SFG, MS

1                            786th Combat Support Battalion, Virgin Islands

37                           5th S FG, KY

30                           Unknown

The assessment team followed up with the 146th SIG BN and the 20th SFG. They confirmed
that, in fact, they had the respective AN/PVS-7 NVDs and have them listed on their property
books, by serial number, and that the NVDs were now authorized by their Military Table of
Organization and Equipment. Furthermore, the six AN/PVS-10s were confirmed as still being
with the 5th SFG at Ft. Campbell, KY, which indicated it intended to transport them to Iraq and
turn them over to MNSTC-I by January 2009.

Further, according to the 5th SFG, in October 2008, they hand carried their 37 NVDs to Iraq and
turned them over to the CJSOTF-AP in Balad, supposedly for transfer to MNSTC-I. However,
24 of the 37 NVDs now are on the CJSOTF property book, by serial number. The location of the
remaining 13 NVDs is currently unknown. As of the date of this report, none of the 37 NVDs
shipped to the 5th SFG were delivered to MNSTC-I.



                                               57
The result is that 294 AN/PVS-7 and six AN/PVS-10 NVDs, purchased by MNSTC-I via
pseudo-FMS case AAB using ISFF monies, were not provided to the ISOF and are now in the
inventory of various U.S. Army units. This was not the intended end state for this ISFF-procured
equipment.

The scope of the corrective action for this particular issue involving case AAB requires an
organizational reach beyond the capability of MNSTC-I.

Iraqi Security Forces Funds
Public Laws 109-13 directs that the appropriated money in the ISFF be used for training and
equipping of the ISF. Use of these funds for any other purpose may constitute a violation of the
Anti-deficiency Act, which “prohibits making or authorizing an expenditure from, or creating or
authorizing an obligation under, any appropriation or fund in excess of the amount available in
the appropriation or fund unless authorized by law,” as quoted from 1 U.S.C. § 1341(a)(1) (A).
However, this specific situation could be viewed as a property management issue since the
original purchase of the NVDs appears to be consistent with the intent of Congress. Moreover,
the problem developed only after diversion of the NVDs from delivery to their purchaser, which
was MNSTC-I.

We coordinated with the Under Secretary of Defense—Comptroller and they agreed that this
situation was not a willful violation of public law as MNSTC-I acted in accordance with the law
when they contracted for the NVDs. The subsequent migration of the MNSTC-I-procured NVDs
into U.S. Army organizations was a property accountability issue and should be addressed as
such.

Revised, Deleted, or Renumbered Recommendations
Because of draft client comments, we eliminated recommendation 8.b. as written in the draft
report. Draft recommendation 8.a. was renumbered to 8. The recommendation was redirected
from the Joint Staff J4 to the Army G4.

Recommendations, Client Comments, and Our Response
8. We recommend that the Office of the Deputy Chief of Staff, Army G4, in coordination with
the United States Central Command, the Multi-National Force Iraq, and the Multi-National
Security Transition Command-Iraq, develop a plan to recover and/or replace the 294 AN/PVS-7
and six AN/PVS-10 night vision devices still not delivered to the Multi-National Security
Transition Command-Iraq, thus enabling it to provide them to the Iraqi Special Operations
Forces.

Client Comments
The Joint Staff J4 provided draft comments indicating they non-concurred with the draft
recommendation assigning them responsibility for the recommendation. They indicated that
Army G4 should be responsible for correcting this situation.




                                               58
Our Response
Although we have yet to receive a signed response from the Joint Staff J4, we have coordinated
with the J4 about their proposal that we redirect this recommendation to the Army G4. The
Action Officer in the Army G4 was included in this coordination. He expects the
recommendation in the final report to come to the Army G4 for action. We redirected this
recommendation to the Army G4 and ask that they respond to the final report.




                                              59
Observation 9. Transition of Supply Management to the Iraqi
Security Forces.
The MNSTC-I LMAT maintained control and custody over all classes of supply (minus
ammunition) stored at the KMTB Location Command. The LMAT did not have a plan to
transition operational control and responsibility for the KMTB Location Command over to the
ISF.

This resulted from the apparent failure of MNSTC-I to coordinate with MoD for the transition of
this responsibility to the Iraqi Army at the Location Command and to issue appropriate planning
guidance to the LMAT.

By not transferring the lead for logistics operations at the KMTB Location Command from the
LMAT to the Iraqi Army elements, the latter were not being mentored in maintaining
accountability and control over sensitive military equipment, such as NVDs, and were not
gaining necessary experience in carrying out this responsibility. This could lead to a loss of
accountability of sensitive items, to include NVDs, at some point in the future.

Applicable Criteria

Government of Iraq Section 505 Assurance Letter, dated August 14, 2004. GoI
agreement to provide the same level of security and accountability as the U.S. and to permit the
USG to observe and review items sold under the security assistance program.

DoD Directive 3000.05. "Military Support for Stability, Security, Transition, and
Reconstruction (SSTR) Operations," November 28, 2005, provides guidance on stability
operations that will evolve over time as joint operating concepts, mission sets, and lessons
learned develop and establishes DoD policy and assigns responsibilities within the DoD for
planning, training, and preparing to conduct and support stability operations.

MNSTC-I Memorandum, “Multi-National Security Transition Command-Iraq
Logistics Accountability Standard Operating Procedures,” April 26, 2008. This
memorandum provided mandatory direction to all MNSTC-I personnel for the maintenance of
materiel accountability through the process of acquisition, receipt, storage, and distribution up to
and including the point of issue to the Government of Iraq.

MNF-I Memorandum, “Implementation of Multi-National Security Transition
Command-Iraq Logistics Accountability Standard Operating Procedures,” June 5,
2008. This memorandum directed the implementation of the MNSTC-I Logistics
Accountability SOP and directed all MNC-I elements to ensure consistent accountability
standards across the supply chain in Iraq. The issuance of the MNSTC-I Logistics
Accountability SOP provided a basis for MNC-I trainers working with ISF units to train and
advise their Iraqi counterparts on the accountability of arms, ammunition, and other supplies.




                                                 61
MNSTC-I Policy Statement #15-08, “Distribution and Issuance of Iraq Security
Force Funds (ISFF) or Foreign Military Sales (FMS) Equipment to the Government
of Iraq (GoI)” 3 July 2008. The policy statement requires that sensitive items, to include
NVDs, will be transferred to the ISF only at TNSD or BPC under specific accountability and
control circumstances. Until a joint Coalition-Iraqi serial number inventory is completed, the
sensitive items must be kept under a 24-hour Coalition guard. Any exceptions to this policy
must be approved by the MNSTC-I J4.

Background
During our visit to the KMTB Location Command, the DoD IG Assessment Team received a
briefing on KMTB operations from both the Iraqi Army Operations Officer and the LMAT
officer in charge. They both stated that the LMAT maintained control and accountability of all
classes of supply, to include NVDs, with the exception of ammunition. The LMAT also
maintained custody of the keys for the supply buildings, and the Iraqis came to the LMAT in
order to have equipment issued.

The LMAT Officer in charge indicated that the Iraqi Army officers at the KMTB Location
Command did not want to sign for the equipment or supplies the LMAT had on-hand and did not
want to be responsible for this aspect of the logistics operation at the Location Command. The
Iraqi officers believed that did not have sufficient staff, training, or experience.

After checking with LMATs at the other Location Commands across Iraq, MNSTC-I informed
the DoDIG Assessment Team that the situation was unique to the KMTB Location Command.
MNSTC-I J4 representatives stated that they would assist the LMAT in transitioning
responsibility for the KMTB Location Command to the Iraqi Army.

Recommendation, Client Comments, and Our Response

9. We recommend that Commander, Multi-National Security Transition Command-Iraq
develop and implement a plan to transition accountability and control over all classes of supply
at Kirkush Military Training Base Location Command–including night vision devices–to the
Iraqi Army.

Client Comments
Commander, MNSTC-I concurred, noting that the Iraqi Commander of the Kirkush Location
Command had been directed by his superiors to complete inventories of the equipment at the
Location Command and to sign for all equipment from the Kirkush LMAT by January 31, 2009.

Our Response
The client comments were responsive. No additional comments are required.




                                               62
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from August 18, 2008 to January 2, 2009 in accordance with the
Quality Standards for Inspections and visited sites in Iraq from October 26, 2008 to
November 12, 2008. We planned and performed the assessment to obtain sufficient and
appropriate evidence to provide a reasonable basis for our observations, conclusions, and
recommendations, based on our assessment objectives.

We reviewed documents such as Federal Laws and regulations, including the National Defense
Authorization Act, the Foreign Assistance Act, the Arms Export Control Act, and the Security
Assistance Management Manual, and appropriate MNF-I, MNC-I, and MNSTC-I guidance.

The scope of our assessment was to determine whether current accountability, control, and
physical security over the distribution of NVDs provided to the security forces of Iraq was
adequate.

We examined policies and procedures for the accountability and control of NVDs purchased for
the ISF via DCS, FMS, and pseudo-FMS. We examined the processes used to control the
receipt, storage, and issue of NVDs from the arrival at the Iraq port of entry through the
subsequent transfer to ISF military and police units. Additionally, we reviewed the policies
employed by both U.S. and Iraqi forces to ensure the proper accountability and physical security
of NVDs procured for the ISF.


The NVD Team chronology was:

August 2008                          NVD Assessment Team established

August – October 2008                Fieldwork – CONUS

October – November 2008              Fieldwork – Iraq

November 2008                        Outbriefs to MNF-I, MNC-I, MNSTC-I staff

November – December 2008             Analysis and Report-writing

December 2008                        Draft assessment report issued

January 2009                         Management comments received and evaluated




                                               63
Limitations
We limited our review to DoD-funded and FMS programs supporting the security forces of Iraq.

Use of Computer-Processed Data
We did not utilize any computer-processed data in this assessment.

Use of Technical Assistance
We did not use Technical Assistance to perform this assessment.

Acronyms Used in this Report
The following is a list of the acronyms used in this report.

AECA                   Arms Export Control Act
AGW                    Abu Ghraib Warehouse
AMC                    Army Material Command
AN/PVS                 Army-Navy Passive Vision System
ATN                    American Technologies Network
BPC                    Baghdad Police College
CJSOTF-AP              Combined Joint Special Operations Task Force-Arabian Peninsula
CTB                    Counter Terrorism Bureau
DCS                    Direct Commercial Sales
DoD                    Department of Defense
DoD IG                 Department of Defense Inspector General
DoS                    Department of State
DSCA                   Defense Security Cooperation Agency
DTSA                   Defense Technology Security Administration
EEUM                   Enhanced End Use Monitoring
EUM                    End Use Monitoring
FMS                    Foreign Military Sales
FOM                    Figure of Merit
FRAGO                  Fragmentary Order - a change to an Operations Order
GoI                    Government of Iraq
ISF                    Iraqi Security Forces
ISFF                   Iraqi Security Forces Fund
ISOF                   Iraqi Special Operations Forces
KMTB                   Kirkush Military Training Base
LMAT                   Logistics Military Assistance Team
MITT                   Military Training Team
MNC-I                  Multi-National Corps-Iraq
MNF-I                  Multi-National Force-Iraq
MNSTC-I                Multi-National Security Transition Command-Iraq
MOA                    Memorandum of Agreement
MOD                    Ministry of Defense (Iraq)
MOI                    Ministry of Interior (Iraq)
NVD                    Night Vision Device


                                                 64
SAO      Security Assistance Office
SFG      Special Forces Group
SCIP     Security Cooperation Information Portal
SOP      Standard Operating Procedure
TNSD     Taji National Supply Depot
U.S.C.   United States Code
USG      United States Government




                                 65
Appendix B. Summary of Prior Coverage

During the last three years, the Government Accountability Office (GAO), the Special Inspector
General for Iraq Reconstruction (SIGIR), and the Department of Defense Inspector General
(DoD IG) have issued a number of reports and testimony discussing the accountability and
control over U.S.-funded equipment provided to the Iraqi Security Forces, and Foreign Military
Sales to the Iraqi Security Forces.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
SIGIR reports can be accessed over the Internet at http://www.sigir.mil. Unrestricted DoD IG
reports can be accessed over the Internet at http://www.dodig.mil/audit/reports or at
http://www.dodig.mil/inspections/ie/reports.
Some of the prior coverage we used in preparing this report has included:

Congressionally Initiated Reports
“The Report of the Independent Commission on the Security Forces of Iraq,” September 2007.

U.S. House of Representatives, Committee on Armed Services, Subcommittee on Oversight &
Investigations, “Stand Up and Be Counted: The Continuing Challenge of Building the Iraqi
Security Forces,” July 2007.

GAO
GAO-08-568T, “Actions Needed to Address Inadequate Accountability over U.S. Efforts and
Investments,” March 2008.

GAO-07-711, “Stabilizing Iraq: DOD Cannot Ensure That U.S.-Funded Equipment Has Reached
Iraqi Security Forces,” July 2007.

GAO-07-637T, “Stabilizing Iraq: Preliminary Observations on Budget and Management
Challenges of Iraq’s Security Ministries,” March 2007.

GAO-07-582T, “Operation Iraqi Freedom: Preliminary Observations on Iraqi Security Forces’
Logistical Capabilities,” March 2007.

GAO-07-503R, Operation Iraqi Freedom: Preliminary Observations on Iraqi Security Forces’
Logistics and Command and Control Capabilities, March 2007.

GAO-07-120C, Operation Iraqi Freedom: Preliminary Observations on Iraqi Security Forces’
Support Capabilities, March 2007.




                                               67
SIGIR
SIGIR-06-033, “Iraqi Security Forces: Weapons Provided By the U.S. Department of Defense
Using the Iraq Relief and Reconstruction Fund,” October 2006, SIGIR-06-032, “Iraqi Security
Forces: Review of Plans to Implement Logistics Capabilities, October 2006.

DoD IG
DoD IG Report No. SPO-2009-002, “Report on the Assessment of Arms, Ammunition, and
Explosives Accountability and Control; Security Assistance; and Logistics Sustainment for the
Iraqi Security Forces,” December 19, 2008.

DoD IG Report No. SPO-2009-001, “Assessment of Arms, Ammunition, and Explosives Control
and Accountability; Security Assistance; and Sustainment for the Afghan National Security
Forces,” October 24, 2008.

DoD IG Report No. SPO-2008-001, “Assessment of the Accountability of Arms and
Ammunition Provided to the Security Forces of Iraq (CLASSIFIED),” July 3, 2008.

DoD IG Report No. D-2008-026, “Management of the Iraqi Security Forces Fund in Southwest
Asia - Phase III,” November 30, 2007.




                                              68
Appendix C. Glossary
This appendix provides definitions of terms used in this report.

Accountability - DoD Instruction 5000.64, “Accountability and Management of DoD-Owned
Equipment and Other Accountable Property,” November 2, 2006, states that accountability is the
obligation imposed by law, lawful order, or regulation, accepted by an organization or person for
keeping accurate records, to ensure control of property, documents, or funds, with or without
physical possession. The obligation, in this context, refers to the fiduciary duties,
responsibilities, and obligations necessary for protecting the public interest. However, it does
not necessarily impose personal liability upon an organization or person.

Direct Commercial Sale – A transaction where a foreign government or of DoD entity
(MNSTC-I, in the case of Iraq) contracts directly with a vendor for defense articles or services.

Blue Lantern Program - State Department end use monitoring of the commercial export of
defense articles, services, and related technical data subject to licensing.

Enhanced End Use Monitoring - Required by the DoD Golden Sentry Program for sensitive
defense articles, services, and technologies; defense articles provided under the provision of
FAA, section 505(f); and technology transfers made within sensitive political situations. For
sensitive articles and/or services, Letters of Offer and Acceptance (LOAs) may contain
specialized notes or provisos requiring greater physical security and accountability contingent on
the principle of trust with verification. Enhanced End Use Monitoring of these items may
require a compliance visit to the host Government by a Defense Security Cooperation Agency
(DSCA) led team.

Foreign Military Sales Cases - The Foreign Military Sales (FMS) Program is that part of
security assistance authorized by the Arms Export Control Act and conducted using formal
agreements between the U.S. Government and an authorized foreign purchaser or international
organization.

Those agreements, called Letters of Offer and Acceptance (LOA), are signed by both the U.S.
Government and the purchasing government or international organization. The LOA provides
for the sale of defense articles and/or defense services (to include training) usually from DoD
stocks or through procurements under DoD-managed contracts. As with all security assistance,
the FMS program supports U.S. foreign policy and national security objectives.

DoD Financial Management Regulation Volume 15, Definitions, April 2002 (current as of July
17, 2008), defines a FMS case as a U.S. DoD LOA and associated supporting and executing
documents.

Foreign Military Sales Pseudo Cases – According to personnel at the Defense Security
Cooperation Agency, the pseudo LOA or case is used by the U.S. Government to track the sale


                                                  69
of defense articles and/or services (to include training and design and construction services) and
are generally funded by the USG (for example, the U.S. Government DoD funding provided to
the Afghanistan Security Forces Fund is used to fund pseudo FMS cases for Afghanistan).

The pseudo LOA itemizes the defense articles and services included in the Letter of Request.
However, the pseudo LOA is not signed by the foreign purchaser or international organization
receiving the articles and/or services. The pseudo LOA is authorized by public law and the
Arms Export Control Act.

Golden Sentry Program - Defense Department routine and enhanced end use monitoring
of defense articles and services provided to foreign customers or international organizations
through government-to-government programs, to include foreign military sales.

Implementing Agency - According to the “FMS Customer Financial Management
Handbook (Billing),” the U.S. Military Department or Defense Agency responsible for the
execution of military assistance programs. With respect to FMS, the Military Department or
Defense Agency assigned responsibility by the Defense Security Assistance Agency to prepare
an LOA and to implement an FMS case. (In the case of Iraq, this is MNSTC-I.) The
implementing agency is responsible for the overall management of the actions that will result in
delivery of the materials or services set forth in the LOA, which was accepted by a foreign
country or international organization.

Logistics - Joint Publication 1-02 states that logistics is the science of planning and carrying
out the movement and maintenance of forces. In its most comprehensive sense, those aspects of
military operations that deal with:
      design and development, acquisition, storage, movement, distribution, maintenance,
       evacuation, and disposition of materiel;
      movement, evacuation, and hospitalization of personnel;
      acquisition or construction, maintenance, operation, and disposition of facilities; and
      acquisition or furnishing of services.

Routine End Use Monitoring - Routine EUM is conducted under the DoS Blue Lantern
Program (Direct Commercial Sale) or the DoD Golden Sentry Program on defense articles and
services that are transferred to trusted partners. In the case of Golden Sentry, the LOAs for these
articles and/or services do not include any unique notes and/or conditions associated with the
specific transfer. Routine EUM responsibilities are performed in conjunction with other required
security assistance duties.


Section 1228 of the 2008 National Defense Authorization Act - Directs the
President to implement a policy to control the export and transfer of defense articles into Iraq,
and to implement a defense articles registration and monitoring system.




                                                 70
Security Assistance Organizations - DoD Directive 2055.3, “Manning of Security
Assistance Organizations and the Selection and USDP Training of Security Assistance
Personnel,” March 11, 1985, defines security assistances organizations as all DoD Component
elements, regardless of actual title, located in a foreign country with assigned responsibilities for
carrying out security assistance management functions under Section 515 of Public Law 87-195,
“Foreign Assistance Act of 1961,” September 4, 1961 (22 U.S.C. 2151 et seq.).




                                                 71
Appendix D. Organizations Contacted and
Visited
We visited, contacted, or conducted interviews with officials (or former officials) from the
following U.S. and Iraqi organizations:

United States
Department of State
      Officials assigned to the Office of Defense Trade Controls Compliance

Department of Defense
      Officials assigned to The Under Secretary of Defense for Acquisition,
       Technology, and Logistics

   Department of the Army
      Officials assigned to the U.S. Army Security Assistance Command

   U.S. Special Operations Command
      Night Vision Device Program Manager

   U.S. Central Command
      Commander, Multi-National Force-Iraq and key staff members (to include the
       Commercial Logistics Distribution Agency and Abu Ghraib Warehouse)
      Chief of Staff, Multi-National Corps-Iraq and key staff members
      Commander, Multi-National Security Transition Command-Iraq and key staff members
      Commander, Joint Contracting Command-Iraq/Afghanistan and key staff members

   Defense Agencies
      Officials assigned to the Defense Security Cooperation Agency
      Officials assigned to the Defense Technology Security Administration

Government of Iraq
Ministry of Defense
      Inspector General
      Deputy Chief of Staff-Logistics



                                                73
     Inspector General, Iraqi Joint Headquarters
     Commander, Location Command
         o Taji
         o Kirkush Military Training Base
     Commander, Taji National Supply Depot
     Commander, 11th Division, Iraqi Army
     1st Iraq Special Operations Forces Brigade
     Night Vision Device Program Manager

Ministry of Interior
     Inspector General
     Assistant Deputy Minister for Infrastructure
     Iraqi Police Units
         o Baghdad Police College
     Night Vision Device Program Manager

Counter Terrorism Bureau
     Night Vision Device Program Manager




                                             74
Appendix E. United States Code and DoD
Policies
United States Code (U.S.C.) requires accountability and control over U.S. Government property.
DoD policies that apply to the accountability and control and the physical security of property to
include arms and ammunition that implement the U.S.C. are outlined in this appendix. In
addition, DoD policy governing the management of security assistance is also discussed.

Title 40, United States Code, section 524 (10 U.S.C. 524). Title 40 U.S.C., section 524,
requires accountability and control over U.S. Government property. It states:
       (a) Required. Each executive agency shall –
           (1) maintain adequate inventory controls and accountability systems for property
           under its control


Arms Export Control Act (AECA) Section 40A. “End-use Monitoring of Defense
Articles and Services”

Sec 40A(2)(A) “shall provide for the end-use monitoring of defense articles and defense services
in accordance with the standards that apply for identifying high-risk exports for regular end-use
verification.”

Sec 40A(2)(B) “shall be designed to provide reasonable assurance that the recipient is complying
with the requirements imposed by the USG with respect to use, transfers, and security of defense
articles and defense services; and such articles and services are being used for the purposes for
which they are provided.”

Foreign Assistance Act, section 505 and 515. The Foreign Assistance Act provides
guidance on technology transfers and sensitive item procurement.

    Section 505. Permits observation of use of articles, services, and training.

      Section 515. Requires overseas management of assistance and sales programs.

International Traffic in Arms Regulations (ITAR). Implementing regulations for AECA,
specifies the United States Munitions List (USML).

Public Law 109-13, “Emergency Supplemental Appropriations Act of Defense, the
Global War on Terror, and Tsunami Relief, 2005,” May 11, 2005, and public laws
109-234, 109-289, and 110-28 provided money for the Iraqi Security Forces Fund (ISFF), to be
used to provide funding; equipment; supplies; services; training; facility and infrastructure repair,
renovation, and construction for the security forces of Iraq




                                                      75
Directive-Type Memorandum (DTM) 08-041 – Registration and Monitoring of
Defense Articles and Services Provided to Iraq, September 25, 2008. This document
establishes policy, assigns responsibilities, and sets forth procedures to certify the establishment
of a registration and monitoring system for controlling the export and transfer of defense articles
to the Government of Iraq (GoI) and/or other groups, organizations, citizens, or residents of Iraq.
It also designates the Defense Security Cooperation Agency (DSCA) as the lead agent
responsible for developing, implementing, and enforcing the registration and monitoring policy
pursuant to section 1228, Public Law 110-181, “National Defense Authorization Act for Fiscal
Year 2008,” January 28, 2008.

DoD Directive 3000.05. "Military Support for Stability, Security, Transition, and
Reconstruction (SSTR) Operations," November 28, 2005, provides guidance on stability
operations that will evolve over time as joint operating concepts, mission sets, and lessons
learned develop and establishes DoD policy and assigns responsibilities within the DoD for
planning, training, and preparing to conduct and support stability operations.

DoD Directive 5105.72. "Defense Technology Security Administration (DTSA)", July 28,
2005, establishes the Defense Technology Security Administration (DTSA) and defines its
mission, responsibilities and functions, relationships, and authorities, as prescribed herein.

DoD Instruction 2040.02. “International Transfers of Technology, Articles, and Services,”
July 10, 2008, establishes policy, assigns responsibility, and provides instructions for the
international transfer of dual-use and defense-related technology, articles, and services.

DoD Instruction 5000.64. DoDI 5000.64, “Accountability and Management of DoD-Owned
Equipment and Other Accountable Property,” November 2, 2006:
    Provides policy and procedures for DoD-owned equipment and other accountable
      property and establishes policy and procedures to comply with 40 U.S.C., section 524.
    Requires that accountable property records shall be established for all property
      purchased, or otherwise obtained, that are sensitive as defined in DoD 4100.39-M,
      “Federal Logistics Information System,” Volume 10, Table 61, November 2007.

DoD Instruction 5010.40. DoDI 5010.40, “Managers’ Internal Control Program Procedures,”
January 4, 2006, states that management internal control procedures are basic to US Government
accountability and are specified in this instruction. DoDI 5010.40, E3.14, identifies operational
and administrative controls for Security Assistance Management of Foreign Military Sales.

DoD Instruction 5100.76. DoDI 5100.76, “Safeguarding Conventional Arms, Ammunition,
and Explosives (AA&E) and the AA&E Physical Security Review Board,” October 8, 2005, and
related guidance cited in those Instructions apply to the accountability and control of AA&E and
other designated sensitive items provided to ISF. DoDI 5100.76 outlines the authorities,
responsibilities, and functions relative to worldwide uniform policy, standards, and guidance for
the physical security of conventional AA&E in the possession or custody of the DoD
Components.




                                                76
DoD 5105.38-M. DoD 5105.38-M, “Security Assistance Management Manual,” October 3,
2003, provides guidance for the administration and implementation of Security Assistance and
related activities in compliance with the Foreign Assistance Act, the Arms Export Control Act,
and related statutes and directives.

DoD 5105.38-M also states that DoD 5100.76-M defines sensitive AA&E and outlines
mandatory procedures for handling, storing, protecting, securing, and transporting it. The
AA&E procedures in DoD 5100.76-M also apply to FMS transfers. Sensitive AA&E are items
such as small arms weapons, various types of ammunition, explosives, and special items, such as
night vision sights and goggles that pose a special danger to the public if they fall into the wrong
hands.

DoD 4100.39-M. DoD 4100.39-M, “Federal Logistics Information System,” Volume 10, Table
61, November 2007, states that sensitive items are materiel that require a high degree of
protection and control due to statutory requirements or regulations. It defines sensitive items as
items of high value, highly technical or of a hazardous nature, and small arms, ammunition,
explosives, and demolition material.

DoD 5100.76-M. DoD 5100.76-M, “Physical Security of Sensitive Conventional Arms,
Ammunition, and Explosives,” August 12, 2000, defines sensitive conventional AA&E, and
prescribes minimum standards and criteria for the physical security of DoD sensitive
conventional AA&E, including non-nuclear missiles and rockets.

DoD 5200.08-R. “Physical Security Program,” April 9, 2007, implements DoD policies and
minimum standards for the physical protection of DoD personnel, installations, operations, and
related resources; to include the security of weapons systems and platforms.

MNF-I FRAGO 08-302 [Iraqi Security Forces Night Vision Device Inventory], dated
031445CJUL08. Directed an inventory of NVDs provided to the ISF, but only covered the
Iraqi Army, not the various police organizations.

MOD 1 to MNF-I FRAGO 08-246. MOD 1 to MNF-I FRAGO 08-246 [MoD Radio and NVD
Maintenance Transition], outlined a three-phased plan to facilitate the successful establishment
of an operationally and logistically self-sufficient NVD repair capability. The FRAGO states
that:

       Phase one will be the transition of radio and NVD responsibilities from the United States
       Government (USG) to the Government of Iraq (GoI) – MoD. This phase involves transferring
       USG furnished equipment used to repair radios and NVDs to the MoD in order to make available
       the facilities, tolls and test equipment necessary to perform radio and NVD repair functions.
       Phase two is to facilitate the establishment, improvement and expansion of the MoD radio and
       NVD repair capability and maintenance concept of support. Phase three is the tracking of radio
       and NVD repair. There will be an overlap between phases. Phases 1, 2 and 3 are currently
       ongoing. Phase 1 will end 01 Dec 08. Phase 2 will endure as long as Coalition advisors are
       assigned to support the MoD radio and NVD repair mission. Phase 3 began 31 May 08 and will
       continue until 01 Dec 08 or MoD radio and NVD repair capability reaches an acceptable readiness
       rating.




                                                     77
MNSTC-I Memorandum, “Multi-National Security Transition Command-Iraq
Logistics Accountability Standard Operating Procedures,” April 26, 2008. This
memorandum provided mandatory direction to all MNSTC-I personnel for the maintenance of
materiel accountability through the process of acquisition, receipt, storage, and distribution up to
and including the point of issue to the Government of Iraq. It also provided a basis for MNSTC-
I trainers and mentors to advise and assist their Iraqi counterparts on the accountability of arms,
ammunition, and other supplies.

MNF-I Memorandum, “Implementation of Multi-National Security Transition
Command-Iraq (MNSTC-I) Logistics Accountability Standard Operating
Procedures (SOP),” June 5, 2008. This memorandum directed the implementation of the
MNSTC-I Logistics Accountability SOP and directs all MNC-I elements to ensure consistent
accountability standards across the supply chain in Iraq. The issuance of the MNSTC-I Logistics
Accountability SOP provided a basis for MNC-I trainers working with ISF units to train and
advise their Iraqi counterparts on the accountability of arms, ammunition, and other supplies.

MNSTC-I Policy Statement #03-08. “Distribution and Issuance of Iraq Security
Force Funds (ISFF) or Foreign Military Sales (FMS) Equipment to the Government
of Iraq,” March 24, 2008. The policy statement requires that sensitive items, to include
NVDs, will only be transferred to the ISF at TNSD or BPC, except under exceptional
circumstances. Until a joint Coalition-Iraqi serial number inventory is completed, the sensitive
items must be kept under a 24-hour Coalition guard.

MNSTC-I Policy Statement #15-08, “Distribution and Issuance of Iraq Security
Force Funds (ISFF) or Foreign Military Sales (FMS) Equipment to the Government
of Iraq (GoI)” 3 July 2008. This document is essentially a re-issue of Policy #03-08, signed
by the new Commanding General. The policy statement requires that sensitive items, to include
NVDs, will be transferred to the ISF only at TNSD or BPC under specific accountability and
control circumstances. Until a joint Coalition-Iraqi serial number inventory is completed, the
sensitive items must be kept under a 24-hour Coalition guard. Any exceptions to this policy
must be approved by the MNSTC-I J4.

MNSTC-I SAO Memorandum. “Iraq Golden Sentry End-Use-Monitoring (EUM) SOP,”
September 12, 2008. Directs the SAO Golden Sentry POC to establish liaison with the U.S.
Embassy Blue Lantern representative to assist in establishing an end use monitoring program for
sensitive items of equipment licensed by the State Department for export as a Direct Commercial
Sale.

Night Vision Device Memoranda of Agreement with the Ministry of Defense,
Ministry of Interior, and the Counter Terrorism Bureau, dated September 30, 2008,
October 2, 2008, and October 2, 2008, respectively. Earlier versions of these
memoranda existed for the MOD (November 2005) and MOI (November 2006). They have
been recently updated, as noted above. A new Memorandum of Agreement was also established
with the Counter Terrorism Bureau. These memoranda establish specific accountability, control,
and physical security requirements for the NVDs transferred to the ISF. They also establish




                                                 78
reporting requirements and provide the basis for U.S. oversight. They also provide guidance on
NVD destruction, loss, theft and demilitarization.




                                              79
Appendix F: Management Comments




                   81
82
83
84
85
86
87
88
89
90
91
92
93
94
95
96
97
98
Appendix G. Report Distribution
Office of the Secretary of Defense
Secretary of Defense
Deputy Secretary of Defense
Chairman of the Joint Chiefs of Staff
Under Secretary of Defense for Acquisition, Technology and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer*
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Vice Chairman of the Joint Chiefs of Staff
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy
Director, Joint Staff
   Director, Operations (J-3)
   Director, Logistics (J-4)*
   Director, Strategic Plans and Policy (J-5)

Department of the Army
Secretary of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Commander, U.S. Army Materiel Command
   Commander, U.S. Army Communications and Electronics Command
   Commander, U.S. Army Security Assistance Command
Auditor General, Department of the Army*
Inspector General of the Army


Department of the Navy
Naval Inspector General
Deputy Assistant Secretary of the Navy (International Programs)


Department of the Air Force
Commander, Air Force Security Assistance Center
Inspector General of the Air Force

Combatant Commands
Commander, U.S. Central Command*
  Commander, Multi-National Force-Iraq*
  Commander, Multi-National Corps-Iraq
  Commander, Multi-National Security Transition Command-Iraq*
  Commander, Joint Contracting Command-Iraq/Afghanistan
Commander, U.S. Joint Forces Command
*Recipient of the draft report




                                              99
Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Security Cooperation Agency*
The Special Inspector General for Iraq Reconstruction

Other Non-Defense Federal Organizations
Department of State
  U.S. Ambassador to Iraq
  Assistant Secretary of State for Political-Military Affairs
  Inspector General, Department of State

Congressional Committees and Subcommittees, Chairman
and Ranking Minority Member
Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
  House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement
  House Subcommittee on National Security and Foreign Affairs
House Committee on International Relations


*Recipient of the draft report




                                                100
